Office of Inspector General
U.S. General Services Administration



Semiannual Report
to the Congress
April 1, 2012 – September 30, 2012
GSA’s SIGNIFICANT MANAGEMENT CHALLENGES
The Congress requested the Inspectors General of major federal agencies to report on the most
significant management challenges facing their respective agencies. Our strategic planning
process commits us to addressing these critical issues. The following table briefly describes the
challenges we have identified for GSA and references related work products issued by the GSA
OIG and discussed in this semiannual report.

CHALLENGE                  BRIEF DESCRIPTION OF CHALLENGE                                PAGE
ACQUISITION                GSA’s procurement organization awards and administers         1
PROGRAMS                   government-wide contracts worth hundreds of billions of
                           dollars. With growing programs and shrinking numbers of
                           qualified acquisition personnel, attention to important
                           fundamentals such as ensuring competition, meaningful
                           price analysis, and implementation of statutory and
                           regulatory compliance-type requirements has diminished.

INFORMATION                Improved planning, development, and implementation of         3
TECHNOLOGY                 Information Technology systems and services are
                           needed to ensure quality data and to support business
                           decisions. GSA also needs to improve the protection of
                           sensitive information and address emerging risks
                           associated with cloud computing.

FINANCIAL                  GSA's systems, including its financial system of record       No
REPORTING                  (Pegasys), continue to have deficiencies in                   Reports
                           interoperability and interfaces. As a consequence, GSA        This
                           management continues to rely heavily on manual                Period
                           workarounds and significant adjusting entries to prepare
                           the financial statements and related note disclosures.

PROTECTION OF              GSA is responsible for protecting the life and safety of      No
FEDERAL                    employees and public visitors in federal buildings. The       Reports
FACILITIES AND             increased risks from terrorism have greatly expanded the      This
PERSONNEL                  range of vulnerabilities. A broadly integrated security       Period
                           program is required.

GREENING                   With its major role in federal building construction and      No
INITIATIVE—                operations, GSA faces challenges to lead change in            Reports
SUSTAINABLE                achieving its goals for sustainability and a Zero             This
ENVIRONMENTAL              Environmental Footprint.                                      Period
STEWARDSHIP

FEDERAL                    Faced with an aging, deteriorating inventory, and             4
BUILDINGS FUND             significant reductions to its budget, GSA is challenged in
                           making the best use of available funds to deliver high
                           performance workplaces on schedule and within budget.

AMERICAN                   Mandated to obligate $5.5 billion for many building           5
RECOVERY AND               projects within a 20-month period, GSA’s shortened
REINVESTMENT               planning and contracting phases will likely result in
ACT OF 2009                continual challenges as Recovery Act-funded projects
                           move into the construction phase.
                            Foreword



During this semiannual reporting period, much attention was focused on our report detailing
spending abuses and excesses of GSA’s 2010 Western Regions Conference. During this
time, our office continued its important work in other areas as well, such as:

•	 We issued 54 audit reports and recommended over $347 million in funds put to better use
   and questioned costs;

•	 We made 620 referrals for criminal prosecution, civil litigation, and administrative action;

•	 Management agreed with almost $423 million of our recent audit findings, while civil
   settlements of court-ordered investigative recoveries totaled over $80 million; and

•	 For the entire fiscal year 2012, the OIG recommended that $663 million in funds put to
   better use and questioned costs and assisted in criminal, civil, and administrative recoveries
   of $298.5 million.

Our Office of Audits has continued to focus on GSA’s Multiple Award Schedule program with
a concentration in preaward audits, and projects focusing on GSA’s Federal Buildings Fund,
Information Technology, and the American Recovery and Reinvestment Act of 2009. Our
Office of Forensic Auditing continued its proactive data analysis to uncover potentially
fraudulent activities. Our Office of Investigations continued to focus on major procurement
and construction fraud. Chief among our achievements was a $5 million settlement by
ReadyOne Industries Inc., to settle claims that it intentionally misrepresented the true costs
of storage boxes purchased by the government and falsely represented that 75% of labor for
the boxes’ manufactured was performed by individuals with disabilities.

On behalf of the President’s Financial Fraud Enforcement Task Force, I continued to reach
out to both the public and private sectors as part of a collaborative effort to prevent and detect
fraud in government contracts and procurement activities. Last June, the Comptroller General
presented me with an award for my work with state and local auditors, among others.

I want to express my appreciation to our OIG employees for their continued dedication to
public service that made this semiannual period and fiscal year successful. I also thank the
Members of Congress, the Office of Management and Budget, and employees throughout
GSA for their continued support.




Brian D. Miller
Inspector General
October 31, 2012




                                                              April 1, 2012 – September 30, 2012 i
ii  Semiannual Report to the Congress
                                                Table of Contents

                                                                                                                                                                            Page

OIG Profile  . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . iv

OIG Organization Chart . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . v

Summary of OIG Performance .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . vi

Fiscal Year 2012 Results .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . vii

Executive Summary  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . viii

Management Challenges  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

           Acquisition Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

           Information Technology . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3

           Federal Buildings Fund .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4

           American Recovery and Reinvestment Act of 2009 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5

           Other Initiatives . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 8

Promoting and Protecting Integrity .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 9

Forensic Auditing, Evaluation, and Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 17

Government-Wide Policy Activities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 18

Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . 21

Appendices

           Appendix I – Significant Audits from Prior Reports .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 29

           Appendix II – Audit Report Register .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 32

           Appendix III – OIG Reports over 12 Months Old,  . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 38
             Final Agency Action Pending

           Appendix IV – Government Contractor Significant Report Findings . .  .  .  .  .  .  .  .  .  . 45

           Appendix V – OIG Reports Without Management Decision .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 46

           Appendix VI – Peer Review Results .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 47

           Appendix VII – Reporting Requirements . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 48

           Appendix VIII – OIG Offices and Key Officials  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 49




                                                                                                                               April 1, 2012 – September 30, 2012 iii
                                                  OIG Profile



Organization                                                  conduct investigations and reviews of potentially
                                                              fraudulent, improper, wasteful, or abusive activities
The GSA OIG was established on October 1, 1978, as
                                                              within selected Agency operations and programs.
one of the original 12 OIGs created by the Inspector
                                                              The evaluation and analysis program conducts
General Act of 1978. The OIG’s five components work
                                                              operational assessments of the OIG’s central and
together to perform the missions mandated by Congress.
                                                              field offices and other operating components,
                                                              implements the OIG’s Federal Managers’ Financial
The OIG provides nationwide coverage of GSA programs
                                                              Integrity Act program, and undertakes special projects
and activities. Our components include:
                                                              and analyses as required by the Inspector General;
                                                              and
•• The Office of Audits, an evaluative organization
   staffed with auditors and analysts who provide
                                                            •• The Office of Administration, a professional staff that
   comprehensive coverage of GSA operations through
                                                               provides information technology, budgetary,
   program, financial, regulatory, and system audits and
                                                               administrative, executive resources, and personnel
   assessment of internal controls. The office conducts
                                                               support services to all OIG offices.
   attestation engagements in support of GSA
   contracting officials to carry out their procurement
   responsibilities and obtain the best value for federal   Office Locations
   customers and the American taxpayers. The office
                                                            The OIG is headquartered in Washington, D.C., at
   also provides other services to assist management in
                                                            GSA’s Central Office Building. Field and regional offices
   evaluating and improving its programs;
                                                            are maintained in Atlanta, GA; Auburn, WA; Boston, MA;
                                                            Chicago, IL; Denver, CO; Fort Lauderdale, FL; Fort
•• The Office of Investigations, an investigative
                                                            Worth, TX; Kansas City, MO; Laguna Niguel, CA; New
   organization that conducts a nationwide program to
                                                            York, NY; Philadelphia, PA; Sacramento, CA; San
   prevent, detect, and investigate illegal or improper
                                                            Francisco, CA; and the Washington, DC area. A contact
   activities involving GSA programs, operations, and
                                                            list of OIG offices and key officials is provided in
   personnel;
                                                            Appendix VIII.
•• The Office of Counsel, an in-house legal staff that
   provides legal advice and assistance to all OIG          Staffing and Budget
   components, represents the OIG in litigation arising
                                                            As of September 30, 2012, our on-board staffing level
   out of or affecting OIG operations, and manages the
                                                            was 283 employees. The OIG’s fiscal year 2012 budget
   OIG legislative and regulatory review;
                                                            was $58 million with an additional $2.3 million in funds
                                                            appropriated under the American Recovery and
•• The Office of Forensic Auditing, Evaluation, and
                                                            Reinvestment Act of 2009 (Recovery Act).
   Analysis, a multidisciplinary staff that employs
   innovative auditing and investigative techniques to




iv  Semiannual Report to the Congress
                                OIG Organization Chart


                                       Inspector General
                                         Brian D. Miller
                                    Deputy Inspector General
                                       Robert C. Erickson

      Office of Counsel to the IG                                    Office of Forensic Auditing,
              Richard Levi                                            Evaluation, and Analysis
           Counsel to the IG                                          Patricia Sheehan, Director
    Office of Communications and
         Congressional Affairs                                       Management        Forensic
              Dave Farley                                            Evaluations       Auditing
                Director


Office of Administration                  Office of Audits                    Office of Investigations
     Larry Lee Gregg                    Theodore R. Stehney                    Geoffrey Cherrington
 AIG for Administration                   AIG for Auditing                     AIG for Investigations


   Budget and Financial                    Audit Planning, Policy,                 Investigations Operations
    Management Office                       and Operations Staff                            Division


                                            Administration and                        Internal Operations
      Facilities and
                                            Data Systems Staff                              Division
     Services Office


                                           Special Projects Office                     Regional Offices
    Contracting Office                                                                  Washington, DC
                                                                                          New York
                                          Finance and Information                          Atlanta
                                          Technology Audit Office                          Chicago
  Information Technology                                                                 Kansas City
         Division                                                                         Fort Worth
                                               Real Property                            San Francisco
                                                                                           Auburn
                                                Audit Office
    Human Resources                                                                        Boston
       Division                                                                          Philadelphia

                                            Acquisition Programs
      Executive                                 Audit Office
                                                                                            Sub-Offices
    Resources Staff/                                                                           Denver
  Human Capital Officer                                                                    Laguna Niguel
                                           Regional Audit Offices                          Ft. Lauderdale
                                                 New York                                   Sacramento
                                                Philadelphia
                                                  Atlanta
                                                  Chicago
                                                Kansas City
                                                 Fort Worth
                                               San Francisco




                                                                          April 1, 2012 – September 30, 2012 v
                                    Summary of OIG Performance



                                          April 1, 2012 – September 30, 2012




                                            OIG Accomplishments
        Total financial recommendations                                                 $347,420,026
        These include:
        •• Recommendations that funds be put to better use                              $343,834,488
        •• Questioned costs                                                               $3,585,538
        Audit reports issued                                                                     54
        Audit memoranda provided to GSA                                                           8
        Management decisions agreeing with audit recommendations                        $422,968,208


                                                 Results Attained
        Referrals for criminal prosecution, civil litigation, & administrative action           620
        Indictments and informations on criminal referrals                                       28
        Cases accepted for criminal prosecution                                                  36
        Cases accepted for civil action                                                           9
        Successful criminal prosecutions                                                         36
        Civil settlements                                                                         7
        Contractors/individuals suspended and debarred                                          185
        Employee actions taken on administrative referrals involving GSA employees               35
        Civil settlements and court-ordered and investigative recoveries                 $80,015,717




vi  Semiannual Report to the Congress
                                       Fiscal Year 2012 Results



During Fiscal Year 2012, OIG activities
resulted in:
•• Over $663 million in recommendations that funds be       •• 70 criminal indictments/informations and 67
   put to better use and in questioned costs. If adopted,      successful prosecutions on criminal matters
   these recommendations ultimately result in savings          previously referred.
   for the taxpayer.
                                                            •• 10 civil settlements.
•• 99 audit reports and 24 audit memoranda that
   assisted management in improving the efficiency and      •• 44 employee actions taken on administrative referrals
   effectiveness of Agency operations.                         involving GSA employees.

•• Over $547 million in management decisions agreeing       •• 207 contractor/individual suspensions and 77
   with audit recommendations; $298.5 million in               contractor/individual debarments.
   criminal, civil, administrative, and other recoveries.
                                                            •• 2,812 Hotline calls and letters received of which 228
•• 339 new investigations opened and 305 cases closed.         were referred for criminal or civil investigations, 85
                                                               were referred to other agencies for follow up, and 228
•• 71 case referrals (110 subjects) accepted for criminal      were submitted to GSA for review and appropriate
   prosecution and 14 case referrals (17 subjects)             administrative actions.
   accepted for civil litigation.




                                                                                  April 1, 2012 – September 30, 2012 vii
                                           Executive Summary



Summary of Results                                           Because of their pre-decisional, advisory nature,
                                                             preaward audits play a crucial role in improving the
During this semiannual period, the OIG continued to
                                                             government’s negotiating position and in realizing
direct its auditing and investigative resources toward
                                                             millions of dollars in savings government-wide.
what it has identified as the major management
                                                             Management decisions were made on 25 preaward
challenges facing the Agency. Since April 1, 2012, the
                                                             audit reports, which recommended over $407 million of
OIG has issued 54 audit reports and referred 620
                                                             funds be put to better use. Four of our more significant
subjects for criminal prosecution, civil litigation, or
                                                             audits were of Multiple Award Schedule (MAS) contracts
administrative action. Between April 1 and September
                                                             with combined projected sales of more than $1.8 billion.
30, 2012, the OIG made over $347 million in
                                                             These audits resulted in recommendations of
recommendations that funds be put to better use and in
                                                             approximately $189 million in funds put to better use.
questioned costs, and its efforts led to civil settlements
and court-ordered and investigative recoveries of over
                                                             Our audit of Recovery Act-funded task orders for IT
$80 million.
                                                             infrastructure projects for the consolidation of the
                                                             Department of Homeland Security’s headquarters found
For the entire fiscal year 2012, the GSA OIG made over
                                                             that the task orders violated the bona fide needs rule
$663 million in recommendations that funds be put to
                                                             and the Antideficiency Act (ADA). Management in the
better use and in questioned costs; over $547 million in
                                                             National Capital Region (NCR) disagreed with the
management decisions agreeing with our audit
                                                             majority of our findings, so we recommended that they
recommendations; and over $298 million in criminal,
                                                             request an opinion from the Department of Justice’s
civil, administrative, and other recoveries.
                                                             Office of Legal Counsel. We noted our concern with the
In its effort to promote economy and efficiency throughout   Client Support Center’s contracting practices and
Agency programs, the OIG focused specifically on             internal processes, and as such, will consider this area
audits of GSA’s acquisition programs, information            as part of our annual audit planning process (page 1).
technology (IT), Federal Buildings Fund, and American        Our audit of 12 Blanket Purchase Agreements (BPA),
Recovery and Reinvestment Act of 2009 (Recovery Act)         intended to help federal agencies transition to cloud-
initiatives. The OIG investigated fraud, waste, and abuse    based services, revealed that the Federal Acquisition
by GSA employees and contractors and provided                Service (FAS) Office of Integrated Technology Services
litigation support for civil fraud actions and criminal      violated the Federal Acquisition Regulation (FAR) and
prosecutions. Below are some of the highlights from this     the General Services Administration Acquisition Manual
semiannual period.                                           (GSAM) (page 2). Additionally, we found that the
                                                             government overpaid for tool kits because the BPA was
                                                             not awarded and administered in accordance with FAR
Management Challenges Highlights                             requirements (page 2).
The OIG continued to provide high quality audit
recommendations and advice so that GSA can lead the          Information Technology. Challenges in GSA’s IT
government in economical contracting and procurement.        infrastructure exist because systems do not integrate
The focus this semiannual period was on acquisition          with each other. This results in a duplication of business
programs, information technology, the Federal Buildings      processes, cost inefficiencies, and customer
Fund, and Recovery Act projects. Here are a few select       dissatisfaction. Our Federal Information Security
audits and memoranda that identify major challenges          Management Act (FISMA) audit of GSA’s IT Security
facing GSA.                                                  Program revealed that additional steps are needed to
                                                             strengthen the program in three main areas: timely
Acquisition Programs. GSA provides federal agencies          patching, contingency plan testing for newly deployed
with billions of dollars of products and services through    systems within the Public Buildings Service (PBS), and
various types of contracts. During this reporting period,    policies for mobile application development (page 3).
the Office of Audits performed preaward audits of 34         The audit found that the Office of the Chief Information
contracts with an estimated value of over $4.3 billion.      Officer (OCIO) has not established adequate


viii  Semiannual Report to the Congress
                                           Executive Summary



performance measures to track and monitor the progress      Promoting and Protecting
of GSA’s transition from Lotus Notes to the Cloud.
Furthermore, our audit found that projected savings
                                                            Integrity Highlights
could not be verified because the OCIO has not updated
                                                            The OIG continued to combat fraud, waste, and abuse
and maintained documentation supporting the cost
                                                            through civil and administrative recoveries and criminal
analysis (page 4).
                                                            investigations during this semiannual period. When
                                                            systemic issues are identified through investigations,
Federal Buildings Fund. One of GSA’s main functions
                                                            they are shared with GSA management for appropriate
is to serve as the landlord for the civilian federal
                                                            corrective actions. During this period, criminal, civil, and
government, and in so doing, make the best use of
                                                            other monetary recoveries totaled over $80 million.
available funds to deliver high performance workplaces
on schedule and within budget. Our audit of the lease
                                                            Civil Recoveries. During this semiannual period,
administration practices of the Southeast Sunbelt
                                                            ReadyOne Industries, Inc., agreed to settle claims that
Region of PBS revealed that its emphasis on computing
                                                            it intentionally misrepresented the true costs of storage
Funds from Operations on an aggregate basis presented
                                                            boxes purchased by the government and falsely
a misleading picture of the Region’s financial
                                                            represented that 75% of labor for the boxes’ manufacture
performance. The profits and losses on individual
                                                            was performed by individuals with disabilities. ReadyOne
properties offset one another and give a false impression
                                                            agreed to pay the United States $5 million plus interest
that the Region operates efficiently within its lease fee
                                                            (page 9). Ward Diesel Filter Company agreed to pay
structure (page 4).
                                                            $628,000 to the United States to resolve claims of
                                                            defective pricing and violation of the price reduction
American Recovery and Reinvestment Act Impact.
                                                            clause of its MAS contract (page 9). To follow up on an
The Recovery Act of 2009 provided GSA with a $5.55
                                                            item in the OIG’s previous Semiannual Report, an
billion appropriation for its Federal Buildings Fund.
                                                            ambulance company agreed to pay $285,000 to settle a
GSA’s PBS is using the funds to convert federal buildings
                                                            complaint alleging that the company falsely billed for
into High-Performance Green Buildings and to construct
                                                            ambulances provided during relief efforts for hurricanes
federal buildings, courthouses, and land ports of entry.
                                                            Katrina and Rita (page 9). Direct Resource, Inc., agreed
Due to the mandate that funds be obligated by September
                                                            to pay $450,000 for violations of the civil False Claims
30, 2011, GSA faced challenges in planning and
                                                            Act in that it knowingly misrepresented that the products
contracting in short time frames. The OIG conducted
                                                            it sold under government contracts were manufactured
oversight of these projects. During this semiannual
                                                            in the United States, when in fact many were
period, our Office of Audits issued Recovery Act reports
                                                            manufactured in China, Malaysia, or Thailand, in
or memoranda on the Mariposa Land Port of Entry
                                                            violation of the Trade Agreements Act (page 9).
Expansion project (page 5); Region 5 Construction
Manager as Constructor Contracts (page 6); the
                                                            Criminal Investigations. Chief among our criminal
Southeast Sunbelt Region Construction Manager as
                                                            investigations this semiannual period was the issuance
Constructor Contracts (page 6); Contract Administration
                                                            of our Management Deficiency Report on the 2010
for the Group 10 Review of PBS’s Limited Scope and
                                                            Western Regions Conference. The report concluded
Small Construction Projects (page 7); Procurement of
                                                            that many of the expenditures for the conference were
Design Build Air Handler Unit/ Photovoltaic Roof Project
                                                            wasteful or impermissible. The report became the
at the Byrne Courthouse and Green Federal Building
                                                            subject of significant media and Congressional attention,
(page 7); and Contract Administration for Construction
                                                            resulting in multiple hearings, changes in the
Services at the Federal Building and U.S. Post Office in
                                                            management and structure of GSA through an ongoing
Wenatchee, Washington (page 7).
                                                            Top to Bottom Review, and various pieces of legislation
                                                            designed to prevent excessive conference spending
                                                            government-wide (page 10). Also during this semiannual
                                                            period, Bovis Lend Lease LMB, Inc., executed a deferred
                                                            prosecution agreement with the U.S. Attorney’s Office


                                                                                   April 1, 2012 – September 30, 2012 ix
                                           Executive Summary



for the Eastern District of New York, admitting to over 10   investigation in Southern California (page 11). Three
years of fraudulently billing government clients. The        individuals were sentenced for a million dollar payphone
agreement requires Bovis to pay $51 million in penalties     scam that was reported in the OIG’s previous Semiannual
to the federal government and restitution to victims         Report (page 12). Other GSA OIG investigations
(page 10). A GSA Air Conditioning Equipment                  revealed various instances of fleet card fraud and
Mechanical Leader for the White House complex pled           misuse (pages 13-14).
guilty to stalking and theft of government property (page
10). The U.S. District Court for the District of Maryland    WPA Artwork. The GSA OIG continued its collaborative
sentenced an individual to five months of imprisonment       effort to recover artwork commissioned in the New Deal
and five months of home confinement after a jury found       Era to the United States. During this semiannual period,
him guilty of impeding a federal agent and assaulting,       18 pieces of art were recovered (page 15).
resisting, or impeding federal officers (page 10). Two
Army sergeants pled guilty to theft of government            Suspension and Debarment. During this reporting
property after an undercover investigation revealed they     period, the OIG made 326 referrals for consideration of
were selling U.S. Army Marathon watches on eBay              suspension or debarment to GSA, and GSA issued 185
(page 11). A GSA contractor pled guilty to wire fraud        suspension and debarment actions based on current
after an investigation revealed that the company had         and previous OIG referrals (page 15).
falsely represented to the government that it was a
minority-owned and service-disabled veteran-owned            Hotline. The OIG Hotline provides an avenue for
business in order to obtain federal government contracts     employees and other concerned citizens to report
(page 11). Two separate investigations uncovered the         suspected wrongdoing. The OIG received 1,681 Hotline
theft of GSA vehicles (page 11), a former GSA employee       contacts from which 455 Hotline cases were initiated
was arrested following a Grand Jury indictment (page         (page 16).
11), and three others were indicted in an ongoing bribery




x  Semiannual Report to the Congress
                                         Management Challenges



Since 1998, we have identified and shared with Congress and senior GSA management those areas and issues we
believe to be the major challenges facing the Agency. This year’s list is summarized on the front inside cover of this report.
During this reporting period, we continued our work addressing these challenges by recommending corrective actions
and working with management to improve Agency operations. The following highlights some of our activities.

Acquisition Programs                                             discounts. In the other two, the contractors had to
                                                                 submit cost build-up data to support the proposed
GSA provides Federal agencies with billions of dollars of        pricing because they lacked comparable commercial
products and services through various types of contracts.        sales. The fourth audit also required the submission of
As of September 30, 2012, there were over 19,800                 cost build-up data. In the latter three cases, our
Multiple Award Schedule (MAS) contracts under GSA’s              evaluation of the cost build-up data resulted in audit
procurement program with over $38.7 billion in total             adjustments. We found that the contractors included
sales. We oversee this program by conducting preaward,           indirect employees in the base hourly rates for direct
postaward, and performance audits. Historically, for             employees and/or applied an inappropriate or excessive
every dollar invested in our preaward audits, we achieve         burden (fringe benefit and overhead) rate. Three of the
at least $10 in lower prices or more favorable contract          audits indicated problems with GSA sales reporting,
terms and conditions for the benefit of the government           resulting in both over- and under-payment of the
and the taxpayer.                                                Industrial Funding Fee. Two of the audits determined
                                                                 the contractors overbilled the government by invoicing
Significant Preaward Audits                                      at a higher contractor site rate when the work was
The pre-decisional, advisory nature of preaward audits           performed at a lower government site rate, or that the
distinguishes them from other audit products. This               contractor failed to pass on price reductions.
program provides vital current information enabling
contracting officers to significantly improve the                Limited Scope Audit of Task Orders Funded by the
government’s negotiating position and to realize millions        American Recovery and Reinvestment Act of 2009
of dollars in savings on negotiated contracts. During this       Report Numbers A110024/Q/A/P12006 and
period, we performed preaward audits of 34 contracts             A110024/Q/A/P12007, dated May 2, 2012
with an estimated value of over $4.3 billion. We
recommended that more than $343 million in funds be              At the end of fiscal year (FY) 2010, the Client Support
put to better use. Management decisions were made on             Center (CSC) in GSA’s National Capital Region (NCR)
25 preaward audit reports, which recommended that                awarded Task Order NP4700101050 for $4,969,916 to
over $407 million of funds be put to better use.                 establish a Project Management Office to support the
Management agreed with 99.9 percent of our                       information technology (IT) infrastructure during the
recommended savings.                                             consolidation of the Department of Homeland Security’s
                                                                 headquarters. It also awarded Task Order NP4700101051
Four of our more significant audits were of MAS contracts        for $6,679,433 to obtain an Independent Verification and
with combined projected government sales of more than            Validation of the products, services, and systems that
$1.8 billion. These audits resulted in recommendations           will be installed for the IT infrastructure. Both task orders
of approximately $189 million in funds be put to better          were funded by Recovery Act funds that expired in
use. All four audits showed that the Price Reductions            FY 2010.
clause was either not being monitored or was ineffective
because the contractor had no or limited commercial              Both task orders violated the bona fide needs rule and
sales. Three of these audits determined that the                 the Antideficiency Act (ADA). In addition, the CSC
commercial sales practice (CSP) information submitted            cannot ensure that the government received the best
by the contractor was not current, accurate, or complete.        price for these task orders because it: (1) hindered
One of these audits found those commercial customers             competition by accepting funds late in the fiscal year; (2)
received greater discounts than that offered to GSA,             relied solely on a flawed independent government cost
although the CSP stated no customers received                    estimate to evaluate pricing; and (3) shared the task

                                                                                        April 1, 2012 – September 30, 2012 1
                                          Management Challenges



Acquisition Programs (continued)

order’s not-to-exceed amount with the contractor. We            evaluation team did not perform a reliable price analysis
also found that the file documentation for Task Order           and did not work effectively with the technical evaluation
NP4700101050 was inconsistent, which contributed to             team to ensure the awards represented the best value for
the ADA violation. CSC also did not obtain a legal review       the customer. We also noted that the contract file was not
prior to awarding Task Order NP4700101051, as                   documented in accordance with the requirements of FAR
required.                                                       4.801(b).

NCR management disagreed with the majority of our               We recommended that the FAS Commissioner:
findings, including the ADA violation. Accordingly, we
recommended that the Federal Acquisition Service                •• Strengthen the Integrated Technology Services’
(FAS) request an opinion about this from the Department            Contract Review Board process for high-dollar,
of Justice’s Office of Legal Counsel.                              complex, and/or highly visible acquisitions;
                                                                •• Review the BPA award to the offeror that did not meet
Management’s overall comments regarding the controls
                                                                   the technical requirements to ensure compliance with
over the CSC’s contracting practices and internal
                                                                   applicable procurement regulations; and
processes are a concern to us. However, as these audits
were limited in nature, we are making no additional             •• Structure future acquisition teams to encourage
recommendations at this time. Nonetheless, we will                 collaboration and leverage the expertise of all team
consider this area as part of our annual audit planning            members.
process.
                                                                The FAS Commissioner agreed with the report
                                                                recommendations.
Audit of the Infrastructure-as-a-Service Blanket
Purchase Agreements                                             Review of Blanket Purchase Agreement Number
Report Number A110172/Q/A/P12008, dated June 4, 2012            GS-06F-04123: Kipper Tool Company
                                                                Report Number A110163/Q/6/P12011, dated
In 2010, GSA’s FAS awarded 12 Blanket Purchase                  September 27, 2012
Agreements (BPAs) to Schedule 70 contract holders for
Infrastructure-as-a-Service offerings at or below the           This review found that the government overpaid for
contractors’ Schedule 70 prices. These BPAs were                items purchased under the subject BPA by as much as
established to help federal agencies transition to cloud-       $6.5 million because the FAS’s Heartland Supply
based services in order to create a more agile federal          Operations Center (HSOC) did not award and administer
enterprise using on-demand services.                            the BPA in accordance with FAR requirements.
This audit found that FAS’s Office of Integrated Technology     The HSOC limited competition without adequate
Services did not fully plan, award, and document these          justification and approval. The BPA was for tool kits,
BPAs in accordance with the Federal Acquisition                 including tool kit sourcing and assembly, but the sole
Regulation (FAR) and the General Services Administration        source justification did not describe the tool kits and
Acquisition Manual (GSAM). In addition, the BPAs were           components to be purchased. With an estimated value
not subjected to an Integrated Technology Services              of $35 million, sole-sourcing this procurement should
Contract Review as required by Acquisition Notice QTA-          have been approved at the Senior Executive level;
2008-07, Revision 4. Specifically, we noted that: (1) the       however, it was approved at a lower level. In addition, the
contracting officer did not base the number of BPAs to          HSOC added items at higher prices than stipulated in the
award on a strategy to maximize their effectiveness, (2) a      agreement without valid determinations that prices were
BPA was awarded to an offeror that did not meet the             fair and reasonable. Finally, the HSOC did not publicize
technical requirements of the solicitation, and (3) the price   this contracting action within the required time frames.


2  Semiannual Report to the Congress
                                         Management Challenges



Acquisition Programs (continued)                               Information Technology
Combined with management’s failure to take prompt              Improved planning, development, and implementation of
corrective action in response to questions raised about        information technology (IT) systems and services are
the BPA, these deficiencies suggest a desire to limit the      needed to ensure quality data and to support business
visibility of the acquisition.                                 decisions. GSA management faces challenges in
                                                               meeting two strategic business goals: (1) providing
We recommended that the Director, HSOC, FAS,                   effective and reliable IT systems and solutions, and (2)
Heartland Region:                                              providing balanced stewardship of information
                                                               technology. Challenges exist because GSA systems
•• Implement controls to ensure contracting actions are        often do not integrate with each other, resulting in
   in compliance with FAR requirements;                        duplication of business processes, cost inefficiencies,
•• Develop technical descriptions for the required tool kits   and customer dissatisfaction.
   in conjunction with customer agencies; and
                                                               FY 2012 Office of Inspector General FISMA Audit of
•• Implement controls to ensure items are assigned             GSA’s Information Technology Security Program
   proper descriptions.                                        Report Number A120125/O/F/F12005, dated
We recommended that the Director, Office of Supply             September 28, 2012
Operations, Office of General Supplies and Services,
FAS:                                                           This audit found that, while the Office of the Chief
                                                               Information Officer (OCIO) continues to take steps to
•• Conduct an internal review, with the assistance of the      improve GSA’s IT Security Program, additional steps
   Office of General Counsel, to determine whether             are needed to strengthen the program in three key
   administrative action is required against HSOC officials    areas: (1) timely patching, (2) contingency plan testing
   responsible for the award and administration of this        for newly deployed systems within the Public Buildings
   BPA.                                                        Service (PBS), and (3) policies for mobile application
                                                               development.
We recommended that the Director, Facilities
Maintenance and Hardware Acquisition Center, FAS,              Three of the systems we reviewed this year did not
Heartland Region:                                              implement system security patches to address
                                                               vulnerabilities. Timely patching was not completed for
•• Conduct an internal review of the underlying contract       two systems because the organizations managing them
   to determine if the government is receiving fair and        have developed and implemented patch management
   reasonable pricing.                                         processes that exceed GSA requirements. The third
FAS management           concurred     with   the   report     system had not completed adequate vulnerability
recommendations.                                               scanning, resulting in multiple database patching-
                                                               related vulnerabilities dating back to 2009.

                                                               PBS lacks procedures to ensure backups are properly
                                                               written to disks or that other recovery methods are
                                                               working prior to deployment. Without adequate testing,
                                                               PBS has to rely on backup methods that have not been
                                                               tested. If these backup methods fail, administrators
                                                               would be unable to perform system restoration.




                                                                                    April 1, 2012 – September 30, 2012 3
                                       Management Challenges



Information Technology (continued)

Finally, GSA has developed five custom mobile                We recommended that the GSA CIO:
applications that it makes available to the public;
however, the GSA OCIO does not have a specific policy        •• Prepare an updated analysis/justification regarding
or other guidance for the secure development of custom          the email and collaboration tools;
mobile applications. To prevent exploitation, security
                                                             •• Develop and implement a comprehensive
officials need to understand the additional risks mobile
                                                                performance measurement program; and
applications introduce into the existing architecture.
                                                             •• Assess the current cloud environment to identify
Based on our audit findings we recommend the GSA                duplicate applications.
CIO take actions to:
                                                             The GSA CIO agreed with the report recommendations.
•• Conduct additional oversight of patch management
   implementations to ensure that system officials are       Federal Buildings Fund
   addressing vulnerabilities on GSA systems in a timely
   manner;                                                   As the landlord for the civilian federal government, GSA
                                                             is being challenged to provide quality space to agencies
•• Work with PBS to ensure that PBS develops and             using an aging, deteriorating inventory of buildings. GSA
   implements a process for testing the restoration of       needs a comprehensive strategy to enable an evaluation
   system backups before new systems are deployed;           of its building projects nationwide to make the best use
   and                                                       of available funds to deliver high performance workplaces
•• Create guidance to assist GSA system officials in         on schedule and within budget.
   securely developing applications for mobile platforms.
                                                             Audit of the Public Buildings Service, Southeast
The GSA CIO agreed with the report recommendations.          Sunbelt Region’s Lease Administration Practices
                                                             Report Number A120023/P/4/R12011, dated
Audit of GSA’s Transition From Lotus Notes
                                                             September 27, 2012
to the Cloud
Report Number A120131/O/F/F12004, dated                      This audit found that the Public Buildings Service’s
September 28, 2012                                           (PBS) emphasis on computing Funds from Operations
                                                             (FFO) on an aggregate basis presented a misleading
This audit found that, although GSA’s OCIO has stated        picture of the Region’s financial performance. The
goals for transitioning email and collaboration tools to     profits and losses on individual properties offset one
the Cloud, it has not established adequate performance       another and give a false impression that the Region
measures to track and monitor the progress of this effort.   operates efficiently within its lease fee structure. In FY
In addition, we were unable to verify that projected         2011, 344 out of 1,535 properties had negative FFO
savings are being achieved because the OCIO has not          totaling $17.7 million, while 219 properties generated
updated and maintained the supporting cost analysis.         returns that exceeded the maximum 7 percent fee
Finally, the OCIO and the Services and Staff Offices         charged to tenants.
have plans in place to continue migrating their
applications from the Lotus Notes collaboration              Further, a review of 44 leases from 39 properties
environment to other platforms using an enterprise-wide      identified a number of billing and payment errors,
governance structure for increased oversight. However,       including: (1) untimely adjustments to rental rates for
this control was not in place across the agency to ensure    tenant improvements and step increases and decreases;
that duplicate applications were not migrated at the         (2) mishandled lease holdovers; (3) delayed processing
onset of the transition project.                             of occupancy agreements; and (4) comingling of the
                                                             revenues and expenses of multiple properties.


4  Semiannual Report to the Congress
                                       Management Challenges



Federal Buildings Fund (continued)

We recommended that the Regional Commissioner of             Recovery Act Report - Mariposa Land Port of
PBS:                                                         Entry Expansion Project, Construction Management
                                                             Services for Phases 2-4 Audit of PBS's Major
•• Assess the efficiency of its operations by identifying    Construction and Modernization Projects Funded
   and adopting a metric that addresses the performance      by the American Recovery and Reinvestment
   of each lease or property, instead of focusing solely     Act of 2009
   on the aggregate FFO of its portfolio; and                Report Number A090172/P/R/R12010, dated
•• Implement processes to ensure that changes to the         September 28, 2012
   lease, rent payments, and occupancy agreements
   are processed timely, accurately, and in accordance       This audit disclosed improper pricing of a task order
   with PBS lease administration policy.                     awarded for Construction Manager (CM) services
                                                             related to the expansion of the Mariposa Land Port of
The Regional Commissioner agreed with the report             Entry Expansion Project. PBS did not verify that correct
recommendations.                                             labor rates and discounts were used to price the task
                                                             order and subsequent modifications at the time they
American Recovery and                                        were awarded. As a result, PBS overpaid $261,936 for
Reinvestment Act Impact                                      these services.

The American Recovery and Reinvestment Act of 2009           PBS awarded a task order for the CM Services against
(Recovery Act) provided GSA with a $5.55 billion             a BPA that contained labor rates from the contractor's
appropriation for its Federal Buildings Fund, and in         underlying Schedule contract. There were two sets of
accordance with the Act, GSA’s PBS is using the funds        rates in the contract; the contractor applied the wrong
to convert federal buildings into High-Performance           set in pricing the task order. In addition, the contractor
Green Buildings as well as to construct federal buildings,   did not extend a previously negotiated discount. This
courthouses, and land ports of entry. The Recovery Act       pricing error resulted in overcharges for the base and
mandated $5 billion of the funds were to be obligated by     option periods of the order as well as certain
September 30, 2010, and that the remaining funds were        modifications.
to be obligated by September 30, 2011. Under this
mandate GSA’s project teams have had to plan and             We recommended that the Acting PBS Regional
contract for projects within extremely short timeframes.     Commissioner for the Pacific Rim Region:
Even with the addition of new employees and contract
support staff, meeting these deadlines has strained the      •• Review the construction management task order
capabilities of the project teams even before the               labor rates to ensure they reflect the negotiated
beginning of actual construction for these projects. The        discounts and recover any overpayments related to
GSA OIG is conducting oversight activities including            the Mariposa project; and
internal audits, attestation engagements, and memoranda      •• Ensure that PBS contracting officials verify that all
of construction and modernization projects funded by the        pricing is accurate before awarding task orders based
Recovery Act.                                                   on schedule contract labor rates.
                                                             PBS agreed with our determination that the contractor
                                                             had used incorrect labor rates to price the initial task
                                                             order and modifications. However, PBS disagreed with
                                                             our position that the additional discount should apply to
                                                             subsequent modifications. PBS has not provided any
                                                             documentation to support this position.



                                                                                   April 1, 2012 – September 30, 2012 5
                                       Management Challenges



American Recovery and Reinvestment Act Impact (continued)

Recovery Act Report – Region 5 Construction                Recovery Act Report – Southeast Sunbelt Region
Manager as Constructor Contracts Audit of PBS’s            Construction Manager as Constructor Contracts
Major Construction and Modernization Projects              Audit of PBS’s Major Construction and
Funded by the American Recovery and                        Modernization Projects Funded by the American
Reinvestment Act of 2009                                   Recovery and Reinvestment Act of 2009
Report Number A090172/P/R/R12007, dated May 10, 2012       Report Number A090172/P/R/R12009, dated
                                                           September 28, 2012
This audit noted two significant concerns with regard to
Construction Manager as Constructor (CMc) contracting.     As part of our ongoing oversight of GSA’s implementation
First, PBS violated both Federal Acquisition Regulation    of the Recovery Act, the OIG reviews major modernization
(FAR) and Competition in Contracting Act (CICA)            and new construction projects to determine whether
requirements by providing bidders with pricing             PBS plans, awards, and administers these contracts in
information during the solicitation process. PBS           accordance with prescribed criteria and Recovery Act
disclosed the government’s estimated Guaranteed            mandates.
Maximum Price (GMP) for construction phase services,
effectively eliminating price competition. Even though     As part of this audit, we reviewed the CMc contracts for
PBS received multiple bids for each project, the           three major projects in the Southeast Sunbelt Region:
proposed pricing was virtually identical because the       the Dr. A.H. McCoy, Robert Smith Vance, and George
bidders had been given this information.                   C. Young federal buildings. The initial CMc award
                                                           amounts for these projects were $60 million, $32 million,
PBS also failed to make adequate determinations of         and $35 million, respectively.
price reasonableness. While the contracting officers
performed some price evaluation for the initial contract   This audit disclosed that PBS effectively eliminated
awards based on the bids received and comparisons to       price competition and violated both FAR and CICA
the independent government estimates, there was no         requirements by including its GMP in the solicitations for
meaningful price competition for the majority of the       the construction contracts. As a result, all of the bidders
work.                                                      proposed identical prices (i.e. the government’s GMP)
                                                           rather than developing and proposing independent
As PBS had been developing and implementing                prices.
management controls for CMc contracts in response to
prior audit reports, we made no additional                 In addition, GSA exercised the construction options
recommendations.                                           prior to the award of the design contracts on two of the
                                                           projects. Because the designs had not been developed,
                                                           specific construction requirements could not be known.
                                                           Consequently, the construction options were not
                                                           enforceable contracts and their associated funding
                                                           obligations were improper and invalid.

                                                           We recommended that the PBS Commissioner:

                                                           •• Obtain a legal review to address problems related to
                                                              the inadequate scopes of work in the base contracts
                                                              for the Vance and Young projects; and
                                                           •• Determine what actions should be taken to ensure
                                                              that these contracts are valid.


6  Semiannual Report to the Congress
                                       Management Challenges



American Recovery and Reinvestment Act Impact (continued)

PBS management acknowledged the audit findings and           the photovoltaic system. In November 2011, PBS
obtained a legal review as recommended in the report.        revised the payback periods to 87.1 years for the
                                                             vegetative roof, 20.91 years for the AHUs, and 61.2
Recovery Act Report – Contract Administration for            years for the photovoltaic system. However, only the
Group 10 Review of PBS’s Limited Scope and Small             initial payback periods were known at the time of award
Construction Projects Funded by the American                 and even these revised payback periods do not represent
Recovery and Reinvestment Act of 2009                        a significant return on investment.
Report Number A090184/P/R/R12008, dated June 13, 2012
                                                             In addition, we noted the contracting officer could not
This review of the administration of a $6 million design-    rely on the Independent Government Estimate (IGE); as
build contract in GSA’s NCR disclosed that PBS did not       a result, the award amount of $7,517,254 was
ensure all contractor employees had proper security          approximately 46 percent higher than the IGE.
clearances, and that a subcontractor did not pay
prevailing wage rates, thereby violating the Davis-Bacon     Contract Administration for Construction Services at
Act.                                                         the Federal Building and U.S. Post Office in
                                                             Wenatchee, Washington
We recommended that the PBS NCR Regional                     Memorandum Number A090184-58, dated May 24, 2012
Commissioner:
                                                             GSA’s PBS awarded a $370,000 contract to Randolph
•• Strengthen policies and procedures to ensure that all     Construction Services, Inc. (Randolph), to install new
   contract employees accessing GSA facilities have          boilers and associated equipment at the Wenatchee
   proper clearances;                                        Federal Building and U.S. Post Office under the
                                                             Recovery Act.
•• Secure physical access at the job site; and
•• Review contractor compliance with the Davis-Bacon         This review determined that PBS did not incorporate the
   Act.                                                      Recovery Act’s “Buy American” provisions into the
                                                             contract at the time of award. Consequently, none of the
The PBS NCR Regional Commissioner agreed with the
                                                             remedies afforded by the FAR could be applied when
report recommendations.
                                                             the contractor installed foreign-manufactured
Procurement of Design Build Air Handler Unit/                construction materials.
Photovoltaic Roof/Green Roof Project at the Byrne
                                                             PBS agreed that the installed items violated “Buy
Courthouse and Green Federal Building – A Limited
                                                             American” requirements and obtained a bilateral credit
Scope Construction Project Funded by the American
                                                             from Randolph for the cost of materials and associated
Recovery and Reinvestment Act of 2009
                                                             labor. PBS stated that in the haste to make an award it
Memorandum Number A090184-56, dated April 26, 2012           inadvertently failed to include the appropriate contract
                                                             clauses.
This review determined that the payback periods for
installing a vegetative roof and replacing the Air Handler
Units (AHU) at the Green Federal Building and installing
a rooftop crystalline photovoltaic system at the Byrne
Courthouse, both located in Philadelphia, Pennsylvania,
did not represent a significant return on investment for
the taxpayer. The preconstruction payback analyses
estimated payback periods of 502.7 years for a
vegetative roof, 32 years for AHUs, and 207.3 years for


                                                                                  April 1, 2012 – September 30, 2012 7
                                         Management Challenges




Other Initiatives
The FAR requires government contractors to disclose            As disclosures are made, the OIG’s Office of Audits,
credible evidence of violations of federal criminal law        Office of Investigations, and Office of Counsel jointly
under Title 18 of the United States Code (18 U.S.C.) and       examine each acknowledgment and make a determination
the False Claims Act to agencies’ Offices of Inspector         as to what actions, if any, are warranted. During this
General (OIG). To facilitate implementation of this            reporting period, we received 21 new disclosures. These
requirement, we developed internal procedures to               disclosures were connected to allegations of employee
process, evaluate, and act on these disclosures and            fraud and inappropriate behavior, as well as failures to
created a website for contractor self-reporting.               comply with contract requirements related to commercial
                                                               sales practices disclosures, billings, price reduction
FAR Rule for Contractor Disclosure                             monitoring, calculation and payment of the Industrial
Effective December 12, 2008, the Civilian Agency               Funding Fee, and the Trade Agreements Act. We
Acquisition Council and the Defense Acquisition                concluded our evaluation of three existing disclosures
Regulations Council agreed on a final rule amending the        that resulted in $1,730,024 in settlements and recoveries
FAR. The final rule implements the Close the Contractor        to the government, and assisted on seven disclosures
Fraud Loophole Act, Public Law 110–252, Title VI               that were referred by another agency because of their
Chapter 1. Under the rule, a contractor must disclose,         potential impact on GSA’s operations. Finally, we
to the relevant OIG credible evidence of a violation of        continued to evaluate 23 existing disclosures during the
federal criminal law including fraud, conflicts of interest,   reporting period.
bribery, or the offering or acceptance of gratuities
connected to the award, performance, or closeout of a
government contract performed by the contractor or a
subcontractor. The rule provides for suspension or
debarment of a contractor when a principal knowingly
fails to disclose, in writing, such violations in a timely
manner.




8  Semiannual Report to the Congress
                                 Promoting and Protecting Integrity



GSA is responsible for providing working space for one million federal employees. The Agency also manages the
transfer and disposal of excess and surplus real and personal property and operates a government-wide service and
supply system. To meet the needs of customer agencies, GSA contracts for billions of dollars' worth of equipment,
supplies, materials, and services each year. We conduct reviews and investigations in all these areas to ensure the
integrity of the Agency’s financial statements, programs, and operations, and that the taxpayers’ interests are protected.
In addition to detecting problems in these GSA programs and operations, the OIG is responsible for initiating actions
and inspections to prevent fraud, waste, and abuse and to promote economy and efficiency. When systemic issues are
identified during investigations, they are shared with GSA management for appropriate corrective action. During this
period, civil, criminal, and other monetary recoveries totaled over $80 million (see Tables 5 and 6).

Civil Recoveries                                                 settlement follows a joint investigation conducted by the
                                                                 GSA OIG, Defense Criminal Investigative Service
The Office of Investigations consolidated investigative          (DCIS), Air Force Office of Special Investigation (AFOSI),
efforts related to civil recoveries involving qui tam filings,   Army Criminal Investigative Command (CID), and Naval
FAR disclosures, and Trade Agreements Act (TAA)                  Criminal Investigative Service (NCIS) into a qui tam
violations in its Washington, D.C. field office. In              alleging that Ward Diesel misrepresented commercial
recognition of the need to expand civil recovery efforts         pricing information during contract negotiations with
throughout its field offices, the GSA OIG formalized this        GSA and that it failed to comply with the contract’s price
initiative as a separate unit to make use of the expertise       reduction clause, which required the company to extend
the organization has gained through previous successful          to federal purchasers the same discounts provided to
investigations. The unit serves as a one-stop shop for           city government customers.
expert information and advice that is necessary to
conduct civil investigations, and which contributed to the       Ambulance Company Agrees to Pay $285,000 to
successes outlined below.                                        Settle Overbilling Claims
                                                                 On September 17, 2012, a consent judgment in the
ReadyOne Industries, Inc., Agrees to Pay                         amount of $285,000 was entered against Richard Bell,
Government $5 Million to Settle Qui Tam                          former Executive Vice President of C. Henderson
On September 25, 2012, ReadyOne Industries, Inc.,                Consulting, Inc. The judgment settled the government’s
formerly National Center for the Employment of the               civil complaint alleging that the company falsely billed
Disabled (NCED), agreed to settle claims and pay the             the Federal Emergency Management Agency $1,971,600
United States $5 million, plus interest. This settlement         for ambulances provided during relief efforts related to
stems from a qui tam complaint alleging that NCED and            hurricanes Katrina and Rita. An investigation conducted
its former president, Robert Jones, intentionally                by the GSA OIG and Department of Homeland Security
misrepresented the true costs of storage boxes purchased         (DHS) OIG determined that the billing equated to
by the government, and represented that 75% of the               providing the government with 60 to 70 ambulances per
direct labor for the boxes’ manufacture was performed by         day when the company only had 50 ambulances
individuals with disabilities, when it was as low as 0%.         available.
Jones and two other former executives have already
received prison sentences for their roles in the fraud.          Direct Resource Agrees to Settle False
                                                                 Claims Act Allegations for $450,000
Ward Diesel Filter Company Agrees to Settle                      On April 25, 2012, Direct Resource, Inc., agreed to pay
Claims with $628,000 Payment                                     $450,000 to the United States for violations of the civil
On June 13, 2012, Ward Diesel Filter Company agreed              False Claims Act. The U.S. Department of Justice’s
to pay $628,000 to the United States to resolve claims           Civil Division and the Office of the U.S. Attorney for the
of defective pricing and violation of the price reduction        District of Columbia worked with the GSA OIG to
clause of its GSA Multiple Award Schedule contract.              investigate qui tam allegations that Direct Resource,
Under this contract, Ward Diesel sold federal agencies           Inc., knowingly misrepresented that the products it sold
its diesel exhaust removal system for fire trucks. This          under government contracts were manufactured in the

                                                                                       April 1, 2012 – September 30, 2012 9
                                Promoting and Protecting Integrity



Civil Recoveries and Criminal Investigations (continued)

United States, when in fact many were manufactured in         some cases impermissible, and that in many instances,
the People’s Republic of China, Malaysia, or Thailand, in     GSA followed neither federal procurement laws nor its
violation of the Trade Agreements Act.                        own policies on conference spending. Conference
                                                              expenses included eight off-site planning meetings and
Criminal Investigations                                       significant food and beverage costs. The report garnered
                                                              considerable attention from Congress and the media,
Deferred Prosecution Agreement Results in Largest             and resulted in five Congressional hearings.
Settlement in NYC History                                     Administrator Johnson resigned her appointment, and
                                                              the agency removed several senior executives and
On April 24, 2012, Bovis Lend Lease LMB, Inc., executed
                                                              employees involved with planning the event. The agency
a deferred prosecution agreement with the U.S.
                                                              has since initiated numerous reforms intended to prevent
Attorney’s Office for the Eastern District of New York
                                                              future abuses. The matter has also been referred to the
and the New York County District Attorney’s Office,
                                                              Department of Justice for criminal prosecution.
admitting to over 10 years of fraudulently overbilling
government clients. Previous investigation conducted
                                                              White House Maintenance Worker Pleads Guilty to
by the GSA OIG, Department of Labor OIG, FBI, New
                                                              Harassment and Theft
York/New Jersey Port Authority OIG, and the New York
City (NYC) Department of Investigations revealed the          On September 13, 2012, Donald Davis, a GSA Air
company intentionally inflated the billable work hours of     Conditioning Equipment Mechanical Leader, pled guilty
its employees assigned to federal and state funded            to stalking and theft of government property in the U.S.
construction projects, and misrepresented the work            District Court for the Eastern District of Virginia. Davis
performed by its minority business enterprise partners.       was previously responsible for maintaining the air
The agreement requires Bovis to pay $51 million in            conditioning units in the White House complex. The
penalties to the federal government and restitution to        GSA OIG investigation revealed that Davis threatened
victims and institute corporate reforms to prevent future     his former girlfriend and her friend (who was employed
such practices.                                               as a Pennsylvania Correctional Officer). Davis harassed
                                                              the victims by sending hundreds of unwanted text
In conjunction with this agreement, James Abadie,             messages and phone calls at all hours of the night. The
former Principal in Charge of the company’s NYC office,       investigation also revealed Davis had stolen GSA
and John Hyers Sr., the former General Superintendent         property valued in excess of $10,000. GSA OIG special
for Bovis’ NYC office, pled guilty to federal conspiracy to   agents recovered a portion of the stolen items when a
commit mail and wire fraud. Both face 121- to 141-month       search warrant was executed at Davis's residence.
prison terms for their roles in this scheme. During a
press conference announcing the results of the                Assault on Agent Results in Stiff Sentence
investigation, U.S. Attorney Loretta Lynch noted this was     On June 19, 2012, the U.S. District Court for the District
the largest construction fraud settlement in NYC history.     of Maryland sentenced Darrell Hardie to five months of
                                                              imprisonment, five months of home confinement, and
2010 Western Regions Conference Investigation                 one year of supervised release, and ordered him to pay
Uncovers Excessive Spending                                   a $5,000 fine and a $25 special assessment. The
On April 2, 2012, the Office of Inspector General issued      sentence followed a two-day jury trial that found Hardie
a management deficiency report on excessive costs             guilty of impeding a federal agent and assaulting,
associated with the 2010 Western Regions Conference           resisting, or impeding federal officers or employees. As
held by the Public Buildings Service in Henderson,            previously reported, GSA OIG special agents arrested
Nevada. In sum, the report concluded that many of the         Hardie after he assaulted a GSA OIG special agent
expenditures for the conference were wasteful and in          while the agent was performing his official duties.




10  Semiannual Report to the Congress
                               Promoting and Protecting Integrity



Civil Recoveries and Criminal Investigations (continued)

Two Army Sergeants Plead Guilty After GSA OIG               three years of incarceration and ordered to pay a court
Undercover Investigation                                    assessment fee of $4,773.60 after being convicted of
On June 18, 2012, U.S. Army First Sergeants Edwin           the theft of two GSA vehicles that were leased to the
Cordero and Tracy Alexander pled guilty to theft of         U.S. Army recruiting station in Philadelphia,
government property. Cordero and Alexander had been         Pennsylvania. The sentence follows a joint investigation
indicted (along with two other conspirators) on October     conducted with the Philadelphia Police Department that
19, 2011, following a GSA OIG undercover investigation      yielded Starling’s admission that he broke into the
which revealed the group was selling U.S. Army              recruiting station specifically to obtain the vehicle keys
Marathon watches on eBay. They obtained the watches         and steal the vehicles from the parking lot. Both vehicles
by altering entries in the Army’s ordering system to hide   were recovered during the investigation.
the additional purchases from unit commanders. Agents
determined that the group used the scheme to obtain         Former GSA Employee Arrested Following a
175 watches at an approximate loss of $265,000.00 to        Grand Jury Indictment in U.S. District Court
the government. The OIG conducted the investigation         On August 16, 2012, GSA OIG agents arrested a former
in cooperation with the Army CID’s Major Procurement        GSA employee following the employee's indictment for
Fraud Unit.                                                 federal false statement and witness tampering violations.
                                                            The arrest stems from a joint investigation conducted
Company Owner Pleads Guilty to Wire Fraud After             with the VA OIG and Las Vegas Police Department into
False Certification as SDVOB                                alleged misconduct. The former employee pled not
On August 7, 2012, Tyrone Jones, a GSA contractor and       guilty to the charges.
vice president of B&J Multi Service Corporation, pled
guilty to wire fraud. On September 27, 2012, Brian          Three Indicted in an Ongoing Bribery Investigation
Bauman, president of the company, also pled guilty to       in Southern California
wire fraud. Investigation had revealed that Jones and       On August 9, 2012, the owners of two Poway, California,
Bauman falsely represented to GSA, the Small Business       defense contractors were indicted for bribery, wire fraud,
Administration, and other government agencies that          and money laundering involving U.S. Navy personnel
B&J was a minority-owned and Service-Disabled               and GSA contractors at the Naval Air Station North
Veteran-Owned business in order to obtain federal           Island in Coronado, California. The indictments resulted
government contracts that were set aside for such           from an ongoing multi-agency investigation into
businesses.                                                 irregularities at that facility.

VA Employee Sentenced for Auto Theft                        U.S. Department of Veterans Affairs Employee
On May 1, 2012, David Cantagallo, a former Veterans         Convicted for Grand Theft and Sentenced
Affairs (VA) Medical Center employee in Providence,         On July 30, 2012, VA employee Andre Patrick Guyton
Rhode Island, was sentenced to two years of                 pled nolo contendere (no contest) to one charge of grand
incarceration and three years of probation for the theft    theft in violation of California law, stemming from his
of a GSA leased vehicle. This sentence followed a joint     unauthorized use of a fleet credit card. Guyton was
GSA OIG and VA OIG investigation that revealed a GSA        sentenced to two days of incarceration, three years of
leased vehicle had been stolen from the VA Medical          probation, a $240.00 fine, and 60 days of community
Center and used in the burglary of a bar located in         service. He was also ordered to pay $3,430.31 in
Providence.                                                 restitution to GSA and an $80.00 special assessment.
                                                            The investigation leading to this conviction began after
GSA OIG Investigation Leads to Conviction for               the GSA Fleet Management Loss Prevention Team
Auto Theft                                                  observed potential fraudulent transactions on a fleet
On August 1, 2012, Ronald Starling was sentenced to         card assigned to the VA Medical Center in West Los



                                                                                 April 1, 2012 – September 30, 2012 11
                               Promoting and Protecting Integrity



Civil Recoveries and Criminal Investigations (continued)

Angeles, California. During an interview, Guyton            investigation began after GSA Region 2 fleet
admitted to OIG agents that he used the card, plus a        management personnel notified the OIG of an apparent
second Fleet card assigned to a vehicle in his unit, to     irregularity in Over the Hill’s claims.
purchase approximately $3,430.31 in fuel in exchange
for cash and free transportation. The Los Angeles           Abuse of the Federal Surplus Property Program
County District Attorney’s Office prosecuted this case.     Results in Pre-Trial Diversion
                                                            On April 11, 2012, Jeffrey Jewell entered into a pre-trial
Three Sentenced to Prison for Million Dollar                agreement diverting criminal penalties for the making of
Payphone Scam                                               false statements. Per the agreement, Jewell must pay
On April 26, 2012, Colin Nordstrom, former Vice             restitution in the amount of $1,000 and return items
President of Sales for Mid-America Payphones, Inc.,         valued in excess of $25,000 to the CMS Surplus Property
was sentenced to three months of incarceration and          Warehouse. A joint investigation conducted by the GSA
three years of supervised release for making false          OIG and FBI had revealed that Jewell was using another
statements. On May 1, 2012, August Schober, former          identity to obtain items from the federal surplus property
Vice President of Mid-America, was sentenced to one         program.
year and one day of incarceration and three years of
supervised release for conspiracy to commit wire fraud.     Three Sentenced Following Investigation into
Finally, on May 18, 2012, Jeff Frost, former President of   SDVOSB Scheme
Mid-America, was sentenced to 54 months of                  On May 8, 2012, Joe Madlinger, co-owner of CJMS
incarceration and three years of supervised release,        Contracting, was sentenced to two years in prison and
and ordered to pay $1,078,967 in restitution for money      ordered to pay a $50,000 fine and $1.5 million in
laundering. These sentences stem from a GSA OIG             restitution to the government. On May 15, Mike Woodling,
investigation that began after an alert GSA employee        owner of Gateway Contractors, was sentenced to three
noticed suspicious calls from pay telephones to GSA         years in prison and a $60,000 fine, and ordered to pay
toll-free numbers. Working with the Internal Revenue        $1.55 million in restitution; and on June 25, 2012, Russell
Service Criminal Investigation, the GSA OIG learned         Todd, a former engineer for the VA, was sentenced to 15
that the individuals schemed to defraud the federal         months of incarceration and one year of supervised
government, state agencies, and private businesses of       release. These sentences follow a joint GSA OIG, VA
$1,078,967 by programming hundreds of payphones             OIG, and Small Business Administration (SBA) OIG
owned by their company to exploit federal regulations       investigation that revealed that Todd instructed a friend
providing payphone service providers with $0.49 for         to find a service-disabled veteran to start a Service-
each toll-free call completed from their payphones.         Disabled Veteran-Owned Small Business (SDVOSB) to
Victims of this "dial around compensation" scheme           gain an advantage in winning contracts. The friend did
included GSA, a number of other federal agencies, and       so, and the company (CJMS) operated as a pass-
private businesses.                                         through, funneling all the work on its federal contracts to
                                                            Gateway. CJMS made false certifications of its status as
Auto Repair Shop Owner Pleads Guilty to                     an SDVOSB, which would have required CJMS to
Unnecessary Repairs                                         perform the majority of the contract work itself, and to
On June 15, 2012, Robert Horton, owner of Over the Hill     have a service-disabled veteran in charge of its daily
Auto Repair in Calcium, New York, pled guilty to making     business, neither of which was true. Todd was paid
false claims in the U.S. District Court for the Northern    bribes in the form of cash, entertainment, baseball
District of New York. Previous investigation had revealed   tickets, lunches, drinks, and dinners in exchange for his
that Horton submitted approximately $30,000 in              recommendation of CJMS for construction work, which
fraudulent claims for repairs to GSA vehicles that either   assisted CJMS and Gateway in securing $3.4 million in
had not been performed or were unnecessary. The OIG         federal contracts (including a Recovery Act contract in
collaborated in this investigation with the Army CID; the   the amount of $654,095).

12  Semiannual Report to the Congress
                               Promoting and Protecting Integrity



Civil Recoveries and Criminal Investigations (continued)

Fleet Card Fraud Leads to 12 Year Sentence for               Fleet Card Fraud - Avila Pleads Guilty to Theft
State Violations                                             On August 29, 2012, Jose Alberto Avila pled guilty to
On May 21, 2012, Anthony E. Duncan, Jr., pled guilty to      four charges of theft related to his unauthorized use of
credit card theft and fraud charges under Virginia law for   four GSA fleet credit cards assigned to the U.S. Marines
his unlawful use of a GSA fleet credit card assigned to      Recruiting Station in Miami, Florida. The GSA OIG and
the Norfolk Naval Shipyard in Portsmouth, Virginia.          the U.S. Secret Service initiated this joint investigation
Duncan also pled guilty to unrelated assault offenses.       after multiple suspicious fuel purchases were identified
For all these offenses, Duncan was sentenced to 12           as having occurred in the South Florida area. The
years in prison (11 years of which were suspended) and       investigation revealed that Avila and two other individuals
supervised probation upon release, and ordered to pay        had made approximately $67,392.19 in fraudulent
$5,951 in restitution to the Navy. The OIG conducted         charges using GSA fleet credit cards.
this investigation jointly with the Virginia Beach Police
Department.                                                  Former Coast Guard Employee Sentenced to
                                                             22 Months' Imprisonment
Air Force Sergeant Sentenced After Court Martial             On August 22, 2012, Vincent Collins, a former U.S.
for Fleet Card Fraud                                         Coast Guard employee, was sentenced to 22 months of
On April 30, 2012, U.S. Air Force Staff Sergeant             incarceration and three years of supervised release,
Kristopher Thornton pled guilty to Uniform Code of           and ordered to pay $77,085.88 in restitution. The
Military Justice theft violations stemming from his          sentence follows his May 2012 guilty plea to one count
fraudulent use of various GSA fleet credit cards             of trafficking in counterfeit access devices. A joint
belonging to the Dover Air Force Base (AFB). Thornton        investigation conducted by GSA OIG, DHS OIG and the
was reduced in rank from E5 to E3, sentenced to three        U.S. Secret Service had revealed that Collins used a
months of hard labor without confinement, fined $3,500,      GSA fleet credit card to make fraudulent purchases
and ordered to forfeit $1,000 of his pay each month for      while employed by the Coast Guard, and that he sold the
three months. The OIG began this investigation after         credit card information to another individual, who also
the GSA Fleet Loss Prevention Team reported that             used the information to make fraudulent purchases.
several GSA fleet credit cards assigned to Dover AFB
had suspicious transactions associated with them. The        Fleet Card Fraud Sentenced to One Year of
OIG collaborated with the Security Forces Squadron at        Incarceration
Dover AFB on this investigation.                             On September 6, 2012, Eugene Wallace was sentenced
                                                             to one year of incarceration, three years of supervised
VA Volunteer Pleads Guilty to Theft After Misusing           release, 200 hours of community service, and restitution
Fleet Card                                                   in the amount of $7,693. Wallace pled guilty to access
On June 25, 2012, Seth Garman pled guilty to theft for       device fraud on February 1, 2012, after a joint
his fraudulent use of a GSA fleet credit card assigned to    investigation conducted by GSA OIG and the Fort Polk
the VA in Lebanon, Pennsylvania. The GSA Fleet Loss          Military Police revealed that Wallace, along with Beth
Prevention Team first alerted the GSA OIG of suspicious      Cantrell and Robert Holiday (who were previously
transactions being made with a GSA fleet credit card.        convicted), made fraudulent fleet card charges on
Through surveillance and analysis of gas station             vehicles that had been taken out of service for repairs or
surveillance video, agents determined that Garman was        body work. Video surveillance identified the subjects
responsible for the unauthorized transactions.               making fuel purchases with the fleet cards. The three
Investigation revealed Garman gained access to the           subjects later confessed and surrendered the fleet cards
credit card through his position as a volunteer for the VA   they had in their possession.
hospital. The OIG worked on this investigation jointly
with the VA OIG.


                                                                                  April 1, 2012 – September 30, 2012 13
                                Promoting and Protecting Integrity



Civil Recoveries and Criminal Investigations (continued)

U.S. Navy Employee Convicted for Theft of U.S.                Credit Card Fraud Gets 24 Months of Supervised
Government Funds                                              Release
On July 20, 2012, U.S. Navy employee Steven Vanzant           On May 16, 2012, Natalia Johnson was sentenced to 24
was convicted of theft. He was sentenced to six months        months of supervised release and ordered to pay
of probation, a $500 fine, and a $100 special assessment,     $2,457.52 in restitution along with a $25 special
and ordered to pay $3,169.66 in restitution to GSA. The       assessment fee by the U.S. District Court for the District
conviction and sentencing follow a GSA OIG investigation      of Maryland. As previously reported, GSA OIG special
that began with the GSA Fleet Management Loss                 agents arrested Johnson for purchasing gasoline with a
Prevention Team’s observation of apparently fraudulent        stolen GSA-issued fleet credit card assigned to the U.S.
transactions made with a fleet card assigned to a Naval       Agency for International Development. The investigation
Air Facility in El Centro, California. During an interview,   revealed Johnson made multiple same-day purchases
Vanzant admitted that he used the card to purchase            to fuel her personal vehicle and her friends’ personal
approximately $3,169.66 in fuel for his personal vehicles.    vehicles, and to purchase food and beverages. Her
                                                              credit card fraud totaled approximately $2,500.
Two California Residents and a California Business
Debarred                                                      Court Martial Follows Unlawful Use of Credit Card
On July 13, 2012, the GSA Suspension and Debarment            On July 20, 2012, Airman First Class (E-3) Don Watkins
Official (SDO) debarred Mohsen Saeedy and Mina                was found guilty of violating Article 92 (dereliction of
Sharifi from doing business with the government. On           duty) and Article 121 (theft of U.S. Air Force property) of
August 16, 2012, the SDO also debarred Saeedy’s               the Uniform Code of Military Justice in conjunction with
business, Fleshtone Color Labs. The debarments                his fraudulent use of up to ten GSA Fleet credit cards.
followed a GSA OIG investigation that revealed the pair       Following conviction, Watkins was ordered to 45 days of
attempted to defraud GSA of $29,301 by purchasing             confinement, 90 days of hard labor without confinement,
three government surplus vehicles and then canceling          two months of restriction to Langley Air Force Base, and
payment to GSA after taking possession of the vehicles.       a reduction in grade to E-1. He was also fined $781. The
Saeedy voluntarily made payment for the vehicles to           investigation was initiated after a GSA loss prevention
GSA and no criminal charges were filed against either         specialist observed anomalies in a fleet credit card’s
individual. The investigation revealed the scheme was         sales pattern and referred the matter to the GSA OIG for
intended to benefit Fleshtone Color Labs.                     investigation. GSA OIG special agents worked with the
                                                              Air Force Office of Special Investigations and local law
Former U.S. Department of Veterans Affairs (VA)               enforcement to identify Watkins, and ultimately
Employee and Nevada Resident Debarred                         determined he was responsible for $5,579 in fraud.
On May 10 and 25, 2012, the GSA SDO debarred former           Watkins was charged in May 2012.
VA employee Neal Fowler and Nevada resident Tatina
Kyles after both were convicted and sentenced for
conspiracy and theft. As previously reported, the pair
was convicted in late 2011 as the result of a joint GSA
OIG and VA OIG investigation that revealed they
misused a GSA fleet credit card, defrauding the
government of approximately $28,000. Their debarments
will end on January 23, 2015.




14  Semiannual Report to the Congress
                                 Promoting and Protecting Integrity



Works Progress Administration (WPA) Art Recovery Project

Works Progress Administration (WPA)                             The inspector determined that the painting was in its
                                                                original frame and had not been re-framed or re-stretched.
Art Recovery Project                                            However, he noted that the WPA plate had been removed
                                                                having found discoloration on the back of the painting
GSA is the custodian of the many works of art produced
                                                                consistent with a standard WPA label having been affixed
through the Works Progress Administration (WPA). Since
                                                                to the painting. The results of the inspection were
the United States commissioned countless pieces of art
                                                                provided to the possessor. However, she refused to
during the New Deal era, many precious historical pieces
                                                                return the painting to the government.
have unlawfully made their way into the marketplace and
collectors’ hands. The OIG has continued to work closely
                                                                On August 24, 2012, the U.S. Attorney’s Office in Arizona
with the Public Buildings Service and the Fine Arts
                                                                filed a civil complaint alleging conversion, trespass to
Program Office, to identify and recover lost and stolen
                                                                chattels, and unjust enrichment under federal common
American cultural property produced at government
                                                                law and Arizona law. The complaint sought a declaratory
expense during the New Deal era.
                                                                judgment that the painting belonged to the United States
                                                                and an order to return it. After receiving notice of the civil
As a result of these cooperative efforts, a total of eighteen
                                                                action, the possessor voluntarily surrendered the painting
lost pieces were recovered during this reporting period.
                                                                in exchange for dismissal of the civil suit. The painting,
During this reporting period, one piece of WPA artwork
                                                                valued between $14,000 and $18,000, has been returned
required intervention of the U.S. Courts to facilitate its
                                                                to GSA's Fine Arts Program Office.
recovery. This is the first time since 2001 that such
intervention was required.
                                                                Suspension and Debarment Initiative
In April 2011, GSA OIG received information that a WPA
painting was being offered for auction by an art gallery in     GSA has a responsibility to ascertain whether the people
Louisiana. The painting was a WPA artwork called Life           or companies it does business with are eligible to
Along the Mississippi by Clarence Millet, as evidenced          participate in federally-assisted programs and
by a brass plate that read, “WPA Federal Art Project,”          procurements, and that they are not considered
affixed to the painting’s frame. GSA OIG special agents         “excluded parties.” Excluded parties are individuals and
subsequently contacted the art gallery and the possessor        companies debarred, suspended, proposed for
and requested that the painting be withdrawn from               debarment, or declared ineligible to receive contracts by
auction to permit authentication. The art gallery complied      a federal agency. The Federal Acquisition Regulation
with the request and returned it to the possessor.              authorizes an agency to suspend or debar individuals or
However, the possessor claimed the painting had been            companies for the commission of any offense indicating
in her family for years, that she believed it had been          a lack of business integrity or business honesty that
re-framed, and that it was not actually a WPA painting.         directly affects the present responsibility of a government
                                                                contractor or subcontractor. The OIG has made it a
Special agents sought assistance from the U.S.                  priority to process and forward referrals to GSA, so GSA
Attorney’s Office for the Eastern District of Virginia to       can ensure that the government does not award
arrange for an inspection of the painting. However, the         contracts to individuals or companies that lack business
possessor moved to Arizona before the inspection could          integrity or honesty.
be arranged. Agents then contacted the U.S. Attorney’s
Office in the District of Arizona for assistance and made       During this reporting period, the OIG made 326 referrals
arrangements through the possessor’s counsel for the            for consideration of suspension/debarment to the GSA
government to have the painting professionally inspected.       Office of Acquisition Policy. GSA issued 185 suspension
                                                                and debarment actions based on current and previous
                                                                OIG referrals.



                                                                                      April 1, 2012 – September 30, 2012 15
                               Promoting and Protecting Integrity



Integrity Awareness                                         Hotline
The OIG presents Integrity Awareness Briefings              The OIG Hotline provides an avenue for employees and
nationwide to educate GSA employees on their                other concerned citizens to report suspected
responsibilities for the prevention of fraud and abuse      wrongdoing. Hotline posters located in GSA-controlled
and to reinforce employees’ roles in helping to ensure      buildings encourage employees to use the Hotline. We
the integrity of Agency operations. This period, we         also use our FraudNet Hotline platform to allow Internet
presented 38 briefings attended by 3,933 regional and       reporting of suspected wrongdoing. During this reporting
Central Office employees. These briefings explain the       period, we received 1,681 Hotline contacts. From these
statutory mission of the OIG and the methods available      contacts, 455 Hotline cases were initiated. In 152 of
for reporting suspected instances of wrongdoing. In         these cases, referrals were made to GSA program
addition, through case studies, the briefings make GSA      officials for review and action as appropriate, 36 were
employees aware of actual instances of fraud in GSA         referred to other federal agencies for follow-up, 136
and other federal agencies and thus help to prevent their   were referred for OIG criminal/civil investigations or
recurrence. GSA employees are the first line of defense     audits, and 137 did not warrant further review.
against fraud, abuse, and mismanagement. They are a
valuable source of successful investigative information.




16  Semiannual Report to the Congress
                         Forensic Auditing, Evaluation, and Analysis



Forensic Auditing                                               Evaluation and Analysis
The Forensic Auditing function employs innovative               The Evaluation and Analysis function plans, directs, and
auditing and investigative techniques to detect fraudulent      conducts operational assessments of OIG field offices
or abusive conduct within Agency operations and                 and other operating components, leads the OIG’s
programs. It develops evidence that meets the                   Federal Managers Financial Integrity Act Program, and
admissibility standards for prosecution in federal courts.      undertakes special projects as required by the Inspector
                                                                General.
During this reporting period, Forensic Auditing played
an integral role in the detection and exposure of fraud,        During this reporting period, the office initiated two
waste, and abuse incurred by GSA management's                   operational assessments of OIG component offices,
excessive conference spending. The office commenced             and launched a project to update the unified OIG records
one proactive fraud project focusing on data-mining and         management policy. Evaluation and Analysis completed
data analysis of potentially fraudulent activity, initiated a   the Federal Managers Financial Integrity Act Annual
review of GSA’s Executive Compensation Practices to             Assurance statement, concluded an operational
evaluate the control structure of the SES performance           assessment of an OIG field office and completed a
recognition and award program, and performed a a                records management project to revise OIG record
review of virtual employee travel expenses. Forensic            retention schedules.
Auditing is providing continuous data analysis and
analytical provision on five Office of Investigation cases.

Forensic Auditing operations this quarter led to the
completion of 19 projects. The office conducted six
proactive data-mining examinations, which resulted in
three referrals to the Office of Investigations for further
review, and concluded forensic analysis on ten
investigative case assists and three hotline referrals for
the Office of Investigations.




                                                                                    April 1, 2012 – September 30, 2012 17
                                Government-Wide Policy Activities



We regularly provide advice and assistance on government-wide policy matters to the Agency, as well as to other
federal agencies and to committees of Congress. In addition, as required by the Inspector General Act of 1978, we
review existing and proposed legislation and regulations to determine their effect on the economy and efficiency of
the Agency’s programs and operations and on the prevention and detection of fraud and mismanagement. Because
of the central management role of the Agency in shaping government-wide policies and programs, most of the
legislation and regulations reviewed invariably affect government-wide issues in areas such as procurement, property
management, travel, and government management and information technology systems. To ensure the auditor's
independence when performing subsequent audit work, we participate in Agency task forces, committees, and working
groups in an observer or advisor capacity.

Interagency Committees                                          foster effectiveness and efficiency of government
                                                                oversight.      Organizations that the IG made
and Working Groups                                              presentations to or had discussions with include: the
                                                                Coalition for Government Procurement, Defense
We participated in a number of interagency committees
                                                                Industry Initiative on Business Ethics and Conduct,
and working groups that address issues that cut across
                                                                American Bar Association Section of Public Contract
agency lines:
                                                                Law, and several regional Intergovernmental Audit
•• Council of the Inspectors General on Integrity               Forums, which are organized by the U.S. Government
   and Efficiency (CIGIE). The Inspector General (IG)           Accountability Office for accountability professionals
   is a member of the Investigations Committee,                 from all levels of government.
   Professional Development Committee, and Homeland             The OIG also continued to share information with
   Security Roundtable. The IG is also the liaison              federal, state, and local partners through a report
   between CIGIE and the federal Chief Acquisition              containing criminal convictions and civil settlements
   Officers Council.                                            as well as an interactive map linking state and local
  –– Federal Audit Executive Council Contracting                websites that contain information on individuals and
     Committee. The Assistant Inspector General for             companies that have been deemed non-responsible.
     Auditing and the Deputy Assistant Inspector                The OIG, working with the Agency, had the interactive
     General for Auditing, Acquisition Programs Audit           map added to the procurement process evaluation
     Office, participate in the Federal Audit Executive         section of the Acquisition Central website, which is
     Council Contracting Committee, created in                  designed for all members of the federal acquisition
     December 2007. This Committee provides a forum             community.
     to share information about, and coordinate audits        •• Naval Postgraduate School Partnership. During
     of, significant contracting and procurement issues          this reporting period, the IG chaired a panel at the
     of interest to the OIG community and the federal            Naval Postgraduate School's 9th Annual Acquisition
     government as a whole. The Committee also                   Research Symposium, "Acquisition Research:
     develops and recommends best practices to be                Creating Synergy for Informed Change." The IG also
     used by OIGs in addressing contracting issues.              continued to work with acquisition faculty at the Naval
•• Financial Fraud Enforcement Task Force’s                      Postgraduate School to determine the most effective
   Recovery Act, Procurement, and Grant Fraud                    way federal inspectors general can work with the
   Working Group: Public and Private Sector                      federal acquisition community to achieve savings of
   Outreach Committee. During this reporting period,             taxpayer dollars.
   the IG continued to reach out to both the public and
   private sectors as part of an effort to prevent, detect,
   and deter procurement fraud. This outreach has
   promoted communication, coordination, and
   cooperation among accountability professionals to



18  Semiannual Report to the Congress
                               Government-Wide Policy Activities



Interagency Committees and Working Groups (continued)

•• Government Infrastructure Protection Initiative          •• TeamMate Technical Support Group. As part of our
   (GIPI). The GSA OIG’s Office of Investigations              mission to address some of the complex integration
   initiated the Government Infrastructure Protection          and security issues surrounding E-Gov and the use of
   Initiative (GIPI) to combat the proliferation of            information technology, the TeamMate Technical
   counterfeit software, information technology products       Support Group participates in the TeamMate Federal
   and other business products in the federal supply           Users Group and the Commerce Clearing House
   chain, which could pose a significant vulnerability to      TeamMate Users Group to discuss concerns and
   the government’s infrastructure. GSA OIG partnered          challenges facing TeamMate users. TeamMate is an
   with the Intellectual Property Rights Center operated       automated audit workpaper management system that
   by Immigration and Customs Enforcement, Homeland            strengthens the audit process, increases the efficiency
   Security Investigations.                                    and effectiveness of our auditors and audits and
                                                               ultimately leads to more robust, quality audit products.
•• Recovery Accountability and Transparency Board
   Working Group (Recovery Working Group).                  •• Interagency Fraud and Risk Data Mining Group
   Comprised of all OIGs, the Recovery Working Group           (IFRDMG). The Office of Forensic Auditing,
   is responsible for overseeing the use of Recovery Act       Evaluation, and Analysis, is a participating member of
   funds, providing advice, and making recommendations         the IFRDMG, and holds an executive committee
   to the Recovery Funds Working Group Committee on            board member position in guiding the future of this
   how best to coordinate oversight efforts of federal,        group. The IFRDMG collaborates the efforts of
   state, and local governments. As a member, the GSA          investigators and auditors across the federal Inspector
   OIG also participated in the American Recovery and          General community for the purpose of sharing best
   Reinvestment Act Lessons Learned Survey this                practices and evaluating the latest data mining and
   reporting period.                                           risk modeling tools and techniques to detect emerging
                                                               risks and patterns.
•• Regional Procurement Fraud Working Group.
   The goal of the Regional Procurement Fraud Working
   Group is to detect, prevent, and prosecute
   procurement fraud. In addition to increasing contact
   and improving communication between agencies and
   the U.S. Attorney’s Offices, this group has developed
   innovative methods to identify and prosecute fraud
   and develop collaborative cases among different
   government agencies. The Special Agent in Charge
   and the Regional Inspector General for Audits in our
   Heartland Region Office participate in quarterly group
   meetings of the Western District of Missouri and
   Kansas. The meetings are chaired by the Chief of the
   Fraud and Corruption Unit of the U.S. Attorney’s
   Office for the Western District of Missouri. Members
   of the group include representatives from the
   Department of Justice, the Regional Field Office of
   the Federal Bureau of Investigation, and the region’s
   OIGs. Meetings are attended by attorneys, agents
   and auditors from various federal government
   agencies.




                                                                                 April 1, 2012 – September 30, 2012 19
                               Government-Wide Policy Activities



Legislation, Regulations,                                    Intra-agency Task Forces, Committees,
and Subpoenas                                                and Working Groups
During this reporting period, the OIG reviewed numerous      The OIG provides advice and counsel to GSA while
legislative matters and proposed regulations. We also        monitoring ongoing Agency initiatives. Our
responded to requests from Congressional members on          representatives advise management of potential
behalf of their constituents. Additionally, we issued 33     problems at the earliest possible opportunity. Our
subpoenas in support of our audit, inspection, evaluative,   purpose is to help ensure that appropriate management
and investigative work. The OIG also made substantive        controls are in place when installing new or modifying
comments on several proposed laws and regulations.           existing Agency systems, and to offer possible solutions
                                                             when addressing complex financial and operational
Testimonies                                                  issues.

During this reporting period, the Inspector General (IG)     Our participation with the Agency on task forces,
testified before Congress on seven occasions. In April       committees, and working groups, typically as nonvoting
2012, he testified on the facts related to the GSA OIG’s     advisory members, allows us to contribute our expertise
Management Deficiency Report on the 2010 Western             and advice, while improving our familiarity with the
Regions Conference (WRC) before the House                    Agency’s rapidly changing systems. However, we are
Committee on Oversight and Government Reform; the            careful to ensure that the nature of our involvement does
House Subcommittee on Economic Development,                  not preclude our ability to independently audit Agency
Public Buildings, and Emergency Management; the              programs.
Senate Subcommittee on Financial Services; and the
Senate Committee on Environment and Public Works. In         During this period we were involved with:
May 2012, the IG testified again before the House
Committee on Oversight and Government Reform on              •• The Multiple Award Schedule Working Group.
his experience as an IG in a hearing focused on IG              The Multiple Award Schedule (MAS) Working Group
vacancies across the government. The House                      issues guidance on negotiating contracts and
Subcommittee on Economic Development, Public                    discusses consistency in the application of FAS policy
Buildings, and Emergency held a hearing titled “GSA: A          with contracting officers and its acquisition staff. It
Review of Agency Mismanagement and Wasteful                     serves as an effective communication channel for
Spending,” at which the IG testified on the available           both broad policy issues and discrete issues related
facts on the 2010 Federal Acquisition Service awards            to specific contracts or audits. The group was
ceremony as well as the parameters of our ongoing               established as a result of an August 2001 OIG report
review of other GSA conferences as a means of                   on MAS contract pricing practices. It is primarily
determining whether systemic control weaknesses exist           comprised of representatives from the FAS and the
in the Agency (other than those identified in the WRC           OIG, along with ad hoc members from other branches
report). Finally, in September 2012, the IG testified in        of the Agency.
front of the Senate Committee on Homeland Security
and Government Affairs about the progress of our
ongoing conference review, as well as whether the OIG
had any further recommendations stemming from the
Management Deficiency Report on the 2010 WRC.




20  Semiannual Report to the Congress
                          Statistical Summary of OIG Accomplishments



Reports Issued                                                         Management Decisions on Reports
The OIG issued 54 reports, containing financial                        Table 1 summarizes the status of the universe of reports
recommendations totaling $347,420,026, including                       requiring management decisions during this period, as
$343,834,488 in recommendations that funds be put to                   well as the status of those reports as of September 30,
better use and $3,585,538 in questioned costs. Due to                  2012. Table 1 does not include three implementation
GSA’s mission of negotiating contracts for government-                 reviews issued during this period because they were
wide supplies and services, most of the savings from                   excluded from the management decision process.
recommendations that funds be put to better use would be               Table  1 also excludes two additional reports from the
applicable to other federal agencies.                                  management decision process because they pertain to
                                                                       ongoing investigations.




Table 1. Management Decisions on OIG Reports
                                                                                    Reports with                     Total
                                                                                     Financial                     Financial
                                                     Number of Reports           Recommendations*              Recommendations
 For which no management decision had been made as of 04/01/2012
 Less than six months old                                       22                           12                    $241,880,131
 Six or more months old                                          0                            0                              $0
 Reports issued this period                                     51                           33                    $347,420,026
                                       TOTAL                    73                           45                    $589,300,157
 For which a management decision was made during the reporting period
 Issued prior periods                                           22                           12                    $241,880,131
 Issued current period                                          33                           20                    $181,242,635
                                       TOTAL                    55                           32                    $423,122,766
 For which no management decision had been made as of 09/30/2012
 Less than six months old                                       18                           13                    $166,177,391
 Six or more months old                                          0                            0                              $0
                                       TOTAL                    18                           13                    $166,177,391

*These totals include audit reports issued with both recommendations that funds be put to better use and questioned costs.




                                                                                               April 1, 2012 – September 30, 2012 21
                          Statistical Summary of OIG Accomplishments



Management Decisions on Reports with Financial Recommendations
Tables 2 and 3 present the reports identified in Table 1 as containing financial recommendations by category (funds be
put to better use or questioned costs).



Table 2. Management Decisions on OIG Reports with Recommendations that
Funds Be Put to Better Use
                                                          Number of Reports                     Financial Recommendations
 For which no management decision had been made as of 04/01/2012
 Less than six months old                                             8                                   $227,292,490
 Six or more months old                                               0                                                 $0
 Reports issued this period                                          28                                   $343,834,488
                                       TOTAL                         36                                   $571,126,978
 For which a management decision was made during the reporting period
 Recommendations agreed to by
 management                                                          25                                   $407,397,425
 Recommendations not agreed to by
 management                                                           1*                                        $154,558
                                       TOTAL                         25                                   $407,551,983
 For which no management decision had been made as of 09/30/2012
 Less than six months old                                             11                                  $163,574,995
 Six or more months old                                               0                                                 $0
                                       TOTAL                          11                                  $163,574,995

*W
  ith the exception of one audit, all the audits' recommendations were agreed to by management, in their entirety. This represents the
 portion of the one audit's recommendation that was not agreed to by management; however, the audit's "agreed to" portion is included
 in the above 25.




22  Semiannual Report to the Congress
                      Statistical Summary of OIG Accomplishments



Table 3. Management Decisions on OIG Reports with Questioned Costs
                                           Number of Reports                 Questioned Costs
For which no management decision had been made as of 04/01/2012
Less than six months old                            7                            $14,587,641
Six or more months old                              0                                       $0
Reports issued this period                          16                            $3,585,538
                             TOTAL                  23                           $18,173,179
For which a management decision was made during the reporting period
Disallowed costs                                    17                           $15,570,783
Cost not disallowed                                 0                                       $0
                             TOTAL                  17                           $15,570,783
For which no management decision had been made as of 09/30/2012
Less than six months old                            6                             $2,602,396
Six or more months old                              0                                       $0
                             TOTAL                  6                             $2,602,396




                                                                       April 1, 2012 – September 30, 2012 23
                        Statistical Summary of OIG Accomplishments



Investigative Workload                                            part of GSA employees, contractors, or private individuals
                                                                  doing business with the government.
The OIG opened 135 investigative cases and closed
139 cases during this period. In addition, the OIG                During this period, the OIG also made 7 referrals to GSA
received and evaluated 60 complaints and allegations              officials for information purposes only.
from sources other than the Hotline that involved GSA
employees and programs. Based upon our analyses of                Actions on OIG Referrals
these complaints and allegations, OIG investigations
were not warranted.                                               Based on these and prior referrals, 36 cases (57 subjects)
                                                                  were accepted for criminal prosecution and 9 cases (11
Referrals                                                         subjects) were accepted for civil litigation. Criminal cases
                                                                  originating from OIG referrals resulted in 28 indictments/
The OIG makes criminal referrals to the Department of             informations and 36 successful prosecutions. OIG civil
Justice or other authorities for prosecutive consideration,       referrals resulted in 7 case settlements. Based on OIG
and civil referrals to the Civil Division of the Department       administrative referrals, management debarred 78
of Justice or to U.S. Attorneys for litigative consideration.     contractors/individuals, suspended 107 contractors/
The OIG also makes administrative referrals to GSA                individuals, and took 35 personnel actions against
officials on certain cases disclosing wrongdoing on the           employees.




Table 4. Summary of OIG Referrals
 Type of Referral                                               Cases                              Subjects
 Criminal                                                        61                                         100
 Civil                                                           32                                          90
 Administrative                                                  84                                         104
 Suspension                                                      43                                         119
 Debarment                                                       43                                         207
                                   TOTAL                         263                                        620




24  Semiannual Report to the Congress
                       Statistical Summary of OIG Accomplishments



Monetary Results
Table 5 presents the amounts of fines, penalties,             Table 6 presents the amount of administrative recoveries
settlements, recoveries, forfeitures, judgments, and          and forfeitures as a result of investigative activities.
restitutions payable to the U.S. government as a result
of criminal and civil actions arising from OIG referrals.

Table 5. Criminal and Civil Recoveries
                                                        Criminal                                Civil
 Fines and Penalties                                        $200,295
 Settlements                                                                                $11,208,284
 Recoveries                                                                                      $18,000
 Forfeitures                                           $1,587,123
 Seizures                                                       $50
 Restitutions                                         $57,989,587
                                 TOTAL                $59,777,055                           $11,226,284




Table 6. Other Monetary Results


 Administrative Recoveries                                                                    $9,003,608
 Forfeitures                                                                                      $8,770
                                 TOTAL                                                        $9,012,378




                                                                                  April 1, 2012 – September 30, 2012 25
26  Semiannual Report to the Congress
APPENDICES




        April 1, 2012 – September 30, 2012 27
28  Semiannual Report to the Congress
                      Appendix I–Significant Audits from Prior Reports



Under the Agency audit management decision process,         The recommendations involve enforcing proper
the GSA Offices of Administrative Services and the          recordkeeping standards on the NJ SASP; reconciling
Chief Financial Officer are responsible for tracking the    the quarterly donation activity received from the SASPs
implementation of audit recommendations after a             to another data source and requiring supervisory review
management decision has been reached. These offices         of the data entered into the GSA system; and reviewing
furnished the following status information.                 the NJ SASP in a more timely fashion, carefully
                                                            documenting these reviews, disseminating the results to
Twelve audits identified in prior reports to the Congress   the SASP, and following up on outstanding issues. They
have not yet been fully implemented. These audits are       are scheduled for completion by April 15, 2014.
being implemented in accordance with currently
established milestones.
                                                            Audit of the General Services
                                                            Administration’s FY 2011 Financial
Audit of the Multiple Award Schedule
                                                            Statements
Program Industrial Funding Fee                              Period First Reported: October 1, 2011, to March 31, 2012
Period First Reported: October 1, 2011, to March 31, 2012
                                                            The objective was to conduct an audit of GSA's
The objectives of the audit were to determine whether       consolidated balance sheet, the individual balance
the Industrial Funding Fee (IFF) is appropriately           sheets of the Federal Buildings Fund and the Acquisition
structured and set at a level that provides a reasonable    Services Fund, the related consolidated and individual
amount of revenue for the Federal Acquisition Service       statement of net cost, the changes in net position, and
(FAS) to recover Multiple Award Schedule (MAS)              the combined and individual statements of budgetary
Program costs, make appropriate investments, and            resources for fiscal year 2011. The report contained 146
maintain a risk mitigating buffer; and whether controls     recommendations; 21 have not been implemented.
for the IFF collection process promote accurate and
timely payment of these fees. The report contained five     The remaining recommendations involve GSA
recommendations; one has not been implemented.              management strengthening controls over: budget and
                                                            transactions; accounting and reporting of general
The remaining recommendation involves evaluating the        property and equipment; accounting and reporting of
current Acquisition Services Fund reserves, determining     environmental liabilities; revenue and expense
whether funds should be returned to the U.S. Treasury,      recognition policies in the Acquisition Services Fund;
and making any returns deemed appropriate. It is            and financial management systems. They are scheduled
scheduled for completion by January 15, 2013.               for completion by May 15, 2013.


Audit of Personal Property Donation                         Audit of GSA’s Improper Payments
Program: New Jersey State Agency                            Performance
for Surplus Property                                        Period First Reported: October 1, 2011, to March 31, 2012
Period First Reported: October 1, 2011, to March 31, 2012
                                                            The objective of the audit was to determine whether
The objectives of the audit were to determine whether       GSA is in compliance with the Improper Payments
donated properties only go to eligible recipients, and      Information Act of 2002 as amended by the Improper
whether these properties are accounted for and used by      Payments Elimination and Recovery Act of 2010 (IPERA)
the New Jersey State Agency for Surplus Property (NJ        regarding the improper payments GSA reported in fiscal
SASP). The report contained three recommendations           year 2011. The report contained six recommendations;
which have not been implemented.                            three have not been implemented.




                                                                                   April 1, 2012 – September 30, 2012 29
                      Appendix I–Significant Audits from Prior Reports



The remaining recommendations involve including all           The remaining recommendations involve the Office of
GSA programs and activities in the payment recapture          the Chief Information Officer clarifying labeling
audit program; complying with requirements by ensuring        requirements for GSA’s sensitive security documentation
the proper source of funds is used to reimburse the           and ensuring that appropriate warning banners are
recapture audit contractor; and issuing official policy       displayed. They are scheduled for completion by
providing guidance to Agency personnel regarding the          October 15, 2012.
reporting of improper payments and implementation of
the IPERA. They are scheduled for completion by
December 15, 2012.                                            Information Technology Solution
                                                              Shop System Performance and
Audit of Small Project American                               Functionality
                                                              Period First Reported: April 1, 2011, to September 30, 2011
Recovery and Reinvestment Act of
2009 Funding Used for Move Costs                              The objective of the audit was to assess the performance
Period First Reported: October 1, 2011, to March 31, 2012     and functionality of the Information Technology Solution
                                                              Shop system in meeting system users’ needs. The
The objective of the audit was to determine if GSA is         report contained two recommendations; one has not
transparent in its use of High-Performance Green              been implemented.
Buildings (HPGB) Small project Recovery Act funding
for the move costs of HPGB Full and Partial Building          The remaining recommendation involves designing a
Modernization and Limited Scope projects. The report          fully-functional procurement system for the Assisted
contained one recommendation which has not been               Acquisition Service that incorporates a standardized
implemented.                                                  procurement process. It is scheduled for completion by
                                                              December 15, 2012.
The recommendation involves improving transparency
by providing supplemental reporting that lists the amount
of funds obligated by project under the small project         GSA’s Fleet Monitoring of Alternative
category. It is scheduled for completion by January 15,
2013.                                                         Fuel Vehicle Surcharge Payments
                                                              Period First Reported: April 1, 2011, to September 30, 2011

                                                              The objectives of the audit were to determine whether
FY 2011 FISMA Audit of GSA’s                                  GSA Fleet appropriately monitors Alternative Fuel
Information Technology Security                               Vehicle (AFV) monthly surcharges collected from
Program                                                       customer agencies, and if material weaknesses are
Period First Reported: April 1, 2011, to September 30, 2011   identified with GSA Fleet’s monitoring processes, what
                                                              actions should be taken. The report contained two
The objective of the audit was to determine whether           recommendations; one has not been implemented.
GSA has developed, documented, and implemented an
Agency-wide information security program. The report          The remaining recommendation involves modifying AFV
contained five recommendations; two have not been             surcharge payment monitoring practices to ensure
implemented.                                                  compliance with federal regulations. It is scheduled for
                                                              completion by November 15, 2012.




30  Semiannual Report to
                      to the
                          the Congress
                              Congress
                      Appendix I–Significant Audits from Prior Reports



Recovery Act Report – Improper                                Information Technology Security
Obligation of Construction                                    Audit of the Information Technology
Contingency Funds                                             Solution Shop System
Period First Reported: April 1, 2011, to September 30, 2011   Period First Reported: October 1, 2010, to March 31, 2011

The objective of the audit was to determine whether           The objective of the audit was to determine whether FAS
GSA is planning, awarding, and administering contracts        has implemented management, operational, and
for major construction and modernization projects in          technical security controls to effectively manage risks
accordance with prescribed criteria and Recovery Act          inherent with a “moderate” risk system, in accordance
mandates. The report contained one recommendation             with FISMA and GSA’s Information Technology Security
which has not been implemented.                               Program. The report contained four recommendations;
                                                              one has not been implemented.
The recommendation involves PBS developing and
implementing methodology to review GSA contract               The remaining recommendation involves FAS
modifications to ensure that obligations are valid. It is     implementing two-factor authentication for remote
scheduled for completion by November 15, 2012.                access by the system administrators. It is scheduled for
                                                              completion by October 15, 2012.

Consistency in Implementing Policy
Across Acquisition Centers –                                  Audit of the General Services
Temporary Extensions                                          Administration’s Fiscal Year 2010
Period First Reported: October 1, 2010, to March 31, 2011     Financial Statements
                                                              Period First Reported: October 1, 2010, to March 31, 2011
The objective of the audit was to determine whether FAS
acquisition centers are consistently implementing and         The objective was to conduct an audit of GSA's
adhering to regulations, policies, and procedures             consolidated balance sheet, the individual balance
regarding temporary extensions. The report contained          sheet of the Federal Buildings Fund and the Acquisition
three recommendations; one has not been implemented.          Services Fund, the related consolidated and individual
                                                              statement of net cost, the changes in net position and
The remaining recommendation involves improving               the combined and individual statements of budgetary
FAS’s ability to manage and reduce the need for               resources for fiscal year 2010. The report contained 117
temporary extensions within the MAS program by                recommendations; three have not been implemented.
developing an automated method of accumulating and
reporting data regarding the use of temporary extensions.     The remaining recommendations involve the Office of
It is scheduled for completion by November 15, 2012.          the Chief Financial Officer working with Agency officials
                                                              to adjust or implement automated application controls to
                                                              ensure that the corresponding feeder systems have the
                                                              capability to capture all necessary data to report financial
                                                              transactions; reviewing GSA policies and procedures
                                                              regarding the use of encryption during the user
                                                              authentication process; and implementing encryption
                                                              for the OA Tool, OA Billing, and RETA. They are
                                                              scheduled for completion by January 15, 2013.




                                                                                     April 1, 2012 – September 30, 2012 31
                                Appendix II–Audit Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                               Funds            Questioned
Date of         Report                                                          Put to        (Unsupported)
Report          Number                    Title                               Better Use          Costs

(Note: Because some audits pertain to contract awards or actions that have not yet been completed, the financial
recommendations related to these reports are not listed in this Appendix.)


PBS Internal Audits
05/02/12        A120115         Implementation Review of Corrective
                                Action Plan for the: FY 2009 Office of
                                Inspector General Information Technology
                                Security Audit of eLease Report Number
                                A090126/P/T/R09005, Dated September
                                30, 2009
05/03/12        A120079         Implementation Review of Corrective
                                Action Plan, Audit of PBS's Controls Over
                                Security of Building Information Report
                                Number A070216/P/R/R08005, Dated
                                September 30, 2008
05/10/12        A090172         Recovery Act Report - Region 5
                                Construction Manager as Constructor
                                Contracts Audit of PBS's Major
                                Construction and Modernization Projects
                                Funded by the American Recovery and
                                Reinvestment Act of 2009
06/13/12        A090184         Recovery Act Report - Contract
                                Administration for Group 10 Review of
                                PBS's Limited Scope and Small
                                Construction Projects Funded by the
                                American Recovery and Reinvestment Act
                                of 2009
09/27/12        A120023         Audit of the Public Buildings Service,
                                Southeast Sunbelt Region's Lease
                                Administration Practices
09/28/12        A090172         Recovery Act Report - Southeast Sunbelt
                                Region Construction Manager as
                                Constructor Contracts Audit of PBS's Major
                                Construction and Modernization Projects
                                Funded by the American Recovery and
                                Reinvestment Act of 2009
09/28/12        A090172         Recovery Act Report - Mariposa Land Port                                $261,936
                                of Entry Expansion Project Construction
                                Management Services for Phases 2-4
                                Audit of PBS's Major Construction and
                                Modernization Projects Funded by the
                                American Recovery and Reinvestment Act
                                of 2009


32  Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                            Financial
                                                                       Recommendations
                                                                   Funds            Questioned
Date of    Report                                                   Put to        (Unsupported)
Report     Number              Title                              Better Use          Costs



PBS Attestation Engagements
05/04/12   A110208   Preaward Examination of Supplemental
                     Architect and Engineering Services
                     Contract: McCullough-Dominguez
                     Architects, PSC, Solicitation Number
                     GS-02P-06-PC-D-3111
05/09/12   A120069   Examination of a Claim: Cleveland
                     Construction, Inc., Subcontractor to
                     Caddell Construction Co., Inc., Contract
                     Number GS-07P-05-UEC-3003
05/17/12   A120092   Audit of Proposed Rental Rate Increase,                                 $475,490
                     Lease Number GS-06P-40004, Internal
                     Revenue Service Center, 315 West
                     Pershing Road, Kansas City, Missouri
05/23/12   A090120   Review of Change Order Proposals:
                     Mascaro Construction Company, L.P.,
                     Contract Number GS-02P-03-DTC-0010,
                     Change Order Request Numbers 41 and
                     49
05/30/12   A120112   Limited Scope Attestation Engagement:
                     Examination of Labor Rates at the JFK
                     Federal Building, Contract Number
                     GS-01P-09-BW-D-0009
06/19/12   A120118   Examination of Accounting System:
                     Swinerton Builders, Contract Number
                     GS-09P-09-KT-C-0103
07/17/12   A120136   Examination of a Claim: Lenex Steel
                     Company, Subcontractor to Caddell
                     Construction Company, Contract Number
                     GS-05P-02-GB-C-0089
08/08/12   A120063   Examination of a Claim: Caddell
                     Construction Co., Inc., Contract Number
                     GS-07P-05-UEC-3003
08/21/12   A120083   Examination of a Change Order Proposal:
                     M.A. Mortenson Company, Contract
                     Number GS-08P-09-JFC-0010
09/18/12   A120121   Examination of a Termination Settlement
                     Proposal: Alutiiq International Solutions,
                     LLC, Contract Number GS-08P-08-
                     JF-C-0005




                                                                  April 1, 2012 – September 30, 2012 33
                                Appendix II–Audit Report Register
                                                                                     Financial
                                                                                Recommendations
                                                                            Funds            Questioned
Date of         Report                                                       Put to        (Unsupported)
Report          Number                    Title                            Better Use          Costs

09/20/12        A120141         Examination of a Claim: Turner
                                Construction Company, Contract Number
                                GS-07P-11-HH-C-0003
09/28/12        A120157         Examination of Cost Accounting Standards
                                Board Disclosure Statement: Grunley
                                Construction Company, Inc., Contract
                                Number GS-11P-12-MK-C-0037

FAS Internal Audits
05/02/12        A110024         Limited Scope Audit of Task Order
                                NP4700101050 Funded by the American
                                Recovery and Reinvestment Act of 2009
05/02/12        A110024         Limited Scope Audit of Task Order
                                NP4700101051 Funded by the American
                                Recovery and Reinvestment Act of 2009
05/30/12        A110100         Audit of Management Controls Within the
                                Network Services Division Pacific Rim
                                Region, Federal Acquisition Service
06/04/12        A110172         Audit of the Infrastructure as a Service
                                Blanket Purchase Agreements
08/02/12        A120116         Implementation Review of Corrective
                                Action Plan for the: FY 2009 Office of
                                Inspector General Information Technology
                                Security Audit of USAccess GSA's
                                Homeland Security Presidential Directive
                                12 System, Report Number A080173/Q/T/
                                P09001, Dated March 26, 2009
09/26/12        A120028         Audit of the Digitization of the Federal
                                Acquisition Service's Multiple Award
                                Schedule Contract Files
09/27/12        A110163         Review of Blanket Purchase Agreement
                                Number GS-06F-04123: Kipper Tool
                                Company




34  Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                           Financial
                                                                      Recommendations
                                                                  Funds            Questioned
Date of    Report                                                  Put to        (Unsupported)
Report     Number             Title                              Better Use          Costs



FAS Attestation Engagements
04/04/12   A110202   Preaward Examination of Multiple Award                                   $8,089
                     Schedule Contract Extension: George W.
                     Allen Company, Inc., Contract Number
                     GS-14F-0177D
04/09/12   A110210   Postaward Examination of Multiple Award
                     Schedule Contract: Logistics Management
                     Institute, Contract Number GS-00F-0026M
04/10/12   A110212   Preaward Examination of Multiple Award
                     Schedule Contract Extension: Global
                     Knowledge Training, LLC, Contract
                     Number GS-35F-4390G
04/10/12   A120090   Preaward Examination of Multiple Award                                   $1,511
                     Schedule Contract Extension: Mine Safety
                     Appliances Company, Contract Number
                     GS-07F-9628G
04/12/12   A110143   Preaward Examination of Multiple Award                                   $8,555
                     Schedule Contract Extension: The J.
                     Diamond Group, Inc., Contract Number
                     GS-07F-0305L
04/23/12   A120086   Preaward Examination of Multiple Award                                 $103,238
                     Schedule Contract Extension: The
                     Analysis Corporation, Contract Number
                     GS-35F-0344L
05/01/12   A110213   Preaward Examination of Multiple Award                                   $8,428
                     Schedule Contract Extension: Miami Air
                     International, Incorporated, Contract
                     Number GS-33F-0016T
05/02/12   A110216   Preaward Audit of Multiple Award Schedule                               $43,996
                     Contract Extension: Learning Tree
                     International USA, Inc., Contract Number
                     GS-35F-4414G
05/10/12   A120082   Preaward Examination of Multiple Award
                     Schedule Contract Extension: Kalman &
                     Company, Incorporated, Contract Number
                     GS-10F-0289M
05/17/12   A110207   Preaward Examination of Multiple Award
                     Schedule Contract Extension: Analytical
                     Graphics, Inc., Contract Number GS-35F-
                     4022D




                                                                 April 1, 2012 – September 30, 2012 35
                                Appendix II–Audit Report Register
                                                                                      Financial
                                                                                 Recommendations
                                                                             Funds            Questioned
Date of         Report                                                        Put to        (Unsupported)
Report          Number                   Title                              Better Use          Costs

05/18/12        A120056         Preaward Examination of Multiple Award                             $30,922
                                Schedule Contract Extension: Systems
                                Research and Applications Corporation,
                                Contract Number GS-35F-4594G
05/31/12        A120059         Preaward Examination of Multiple Award                             $77,733
                                Schedule Contract Extension: The MIL
                                Corporation, Contract Number GS-35F-
                                4670G
06/29/12        A110169         Postaward Examination of Multiple Award                           $225,180
                                Schedule Contract: Oce North America,
                                Inc., Contact Number GS-25F-0060M for
                                the Period Oct. 1, 2006 Through March 31,
                                2011
07/05/12        A110166         Preaward Examination of Multiple Award
                                Schedule Contract Extension: Pitney
                                Bowes, Inc., Contract Number GS-25F-
                                0010M
07/06/12        A120126         Preaward Examination of Multiple Award
                                Schedule Contract: Hamilton Products
                                Group, Inc., Solicitation Number 3QSA-JB-
                                100001-B
07/12/12        A120146         Examination of a Claim: Settles
                                Associates, Inc. (DBA Matrix Settles PC),
                                Task Order GS-P-11-10-YL-0049 Under
                                Contract Number GS-29F-0022N
07/13/12        A110204         Preaward Examination of Multiple Award
                                Schedule Contract Extension: Noblis, Inc.
                                Contract Number GS-10F-0189T
07/31/12        A120081         Preaward Examination of Multiple Award
                                Schedule Contract Extension: Gleason
                                Research Associates, Incorporated,
                                Contract number GS-23F-0253M
08/09/12        A120084         Preaward Examination of Multiple Award
                                Schedule Contract Extension: Raytheon
                                Company, Contract Number GS-35F-
                                4097G
08/15/12        A110209         Preaward Audit of Multiple Award Schedule                        $2,063,375
                                Contract Extension: Propper International
                                Sales, Inc., Contract Number GS-07F-
                                0228M




36  Semiannual Report to the Congress
                        Appendix II–Audit Report Register
                                                                               Financial
                                                                          Recommendations
                                                                      Funds            Questioned
Date of    Report                                                      Put to        (Unsupported)
Report     Number                Title                               Better Use          Costs

08/17/12   A120119      Preaward Examination of Multiple Award                                   $38,840
                        Schedule Contract Extension: Spectrum
                        Systems, Inc., Contract Number GS-35F-
                        5192G
08/23/12   A120061      Preaward Examination of Multiple Award                                  $110,209
                        Schedule Contract Extension: Schneider
                        Electric USA, Inc., Contract Number
                        GS-07F-9462G
09/12/12   A120103      Preaward Examination of Multiple Award                                    $3,230
                        Schedule Contract Extension: ManTech
                        Advanced Systems International, Inc.,
                        Contract Number GS-35F-4660G
09/12/12   A120129      Preaward Examination of Multiple Award
                        Schedule Contract Extension: Brookfield
                        Relocation Inc., Contract Number GS-23F-
                        9734H
09/28/12   A120091      Preaward Examination of Multiple Award                                  $124,806
                        Schedule Contract Extension: PRO-
                        telligent, LLC, Contract Number GS-10F-
                        0417M

Other Internal Audits
09/28/12   A120125      FY 2012 Office of Inspector General
                        FISMA Audit of GSA's Information
                        Technology Security Program
09/28/12   A120131      Audit of GSA's Transition from Lotus Notes
                        to the Cloud
09/28/12   A120132      Audit of GSA's Implementation of the
                        Federal Data Center Consolidation
                        Initiative




                                                                     April 1, 2012 – September 30, 2012 37
 Appendix III–OIG Reports over 12 Months Old, Final Agency Action Pending
Public Law 104-106 requires the head of a federal                In GSA, the Office of Administrative Services and the
agency to complete final action on each management               Chief Financial Officer are responsible for monitoring
decision required with regard to a recommendation in             and tracking open recommendations. While we continue
an Inspector General's report within 12 months after the         to assist the Agency in resolving these open items,
date of the report. If the head of the Agency fails to           various litigative proceedings, continuing negotiations of
complete final action within the 12-month period, the            contract proposals, and corrective actions needed to
Inspector General shall identify the matter in the               undertake complex and phased-in implementing actions
semiannual report until final action is complete.                often delay timely completion of the final action.

The Office of Administrative Services provided the following list of reports with action items open beyond 12 months:

Date of	        Report
Report	         Number	                                              Title	

Attestation Engagements
08/28/07        A060196           Preaward Review of Request for Equitable Adjustment: Tigard Electric,
                                  Incorporated, Solicitation Number GS-10P-02-LTC-0025
08/21/09        A080030           Preaward Review of Multiple Award Schedule: Hewlett-Packard Company,
                                  Solicitation Number FCIS-JB-980001
11/16/10        A080057           Preaward Review of Multiple Award Schedule Contract Extension: The Sherwin-
                                  Williams Company, Contract Number GS-1OF-0004J
07/06/10        A080070           Preaward Review of Multiple Award Schedule Contract Extension: Accenture, LLP,
                                  Contract Number GS-35F-4692G
09/15/10        A080124           Limited Scope Postaward Review for the Period July 1, 2003 to December 29,
                                  2008: ASAP Software Express, Inc., Contract Number GS-35F-4027D
01/20/09        A080136           Preaward Review of Multiple Award Schedule Contract Extension: Dynamic
                                  Decisions, Inc., Contract Number GS-35F-5879H
11/17/09        A080144           Preaward Review of Multiple Award Schedule Contract Proposal: BMC Software,
                                  Inc., Solicitation Number FCIS-JB-980001-B
12/12/08        A080177           Preaward Review of Multiple Award Schedule Contract Extension: Tecolote
                                  Research, Incorporated, Contract Number GS-35F-5115H
07/22/11        A080188           Review of a Claim: Dynalectric Company, Subcontractor to Dick Corporation,
                                  Solicitation Number GS-04P-01-EXC-0044
04/27/09        A080210           Preaward Review of Multiple Award Schedule Contract Extension:
                                  ImmixTechnology, Inc., Contract Number GS-35F-033J
12/29/08        A090042           Postaward Audit Report on Direct Costs Incurred on Trilogy Project: Computer
                                  Sciences Corporation, Solicitation Number GS-00T-99-ALD204
06/30/11        A090045           Limited Scope Postaward Review of Multiple Award Schedule for the Period
                                  January 1, 2005 to July 31, 2007: C-Tech Industries, Inc., Contract Number
                                  GS-07F-0496T
09/04/09        A090074           Preaward Review of Multiple Award Schedule Contract Extension: Tech Flow, Inc.,
                                  Contract Number GS-35F-0210J




38  Semiannual Report to the Congress
Appendix III–OIG Reports over 12 Months Old, Final Agency Action Pending
Date of	   Report
Report	    Number	                                   Title	

09/03/09   A090089   Preaward Review of Multiple Award Schedule Contract Extension: Mohawk Carpet
                     Corporation, Less Carpets Division, Contract Number GS-27F-0031N
08/21/09   A090090   Preaward Review of Multiple Award Schedule Contract Extension: Ezenia!, Inc.,
                     Contract Number GS-35F-0475P
08/19/09   A090106   Preaward Review of Multiple Award Schedule Contract Extension: Perot Systems
                     Government Services, Inc., Contract Number GS-00F-0049M
06/24/10   A090108   Preaward Review of Multiple Award Schedule Contract Extension: Integrated Data
                     Services, Inc., Contract Number GS-35F-0372J
06/07/11   A090112   Postaward Review of Multiple Award Schedule Contract for the Period March 20,
                     1998 through April 30, 2008: ITS Services, Inc., Contract Number GS-35F-5518H
08/16/10   A090130   Limited Review of Multiple Award Schedule for the Period January 8, 2002 to
                     November 7, 2005: Cort Business Furniture, Contract Number GS-28F-7018G
10/27/10   A090133   Limited Scope Postaward Review of Multiple Award Schedule for the Period July
                     29, 2002 to September 9, 2008: SeaArk Marine, Inc., Contract Number GS-07F-
                     0012J
08/24/10   A090140   Postaward Review of Multiple Award Schedule Contract: Systems Research and
                     Applications Corporation, Contract Number GS-35F-0735J
08/06/09   A090145   Preaward Review of Multiple Award Schedule Contract Extension: BTAS, Inc.,
                     Contract Number GS-35F-0546J
12/10/09   A090159   Preaward Review of Multiple Award Schedule Contract Extension: RCF Information
                     Systems, Inc., Contract Number GS-35F-0613J
11/24/10   A090192   Preaward Review of Multiple Award Schedule Contract Extension: SHI International
                     Corporation, Contract Number GS-35F-0111K
08/22/11   A090196   Review of Construction Management Services Contract: Bovis Lend Lease LMB,
                     Inc., Solicitation Number GS-02P-04-DTC-0028
02/24/10   A090198   Preaward Review of Multiple Award Schedule Contract Extension: IBIS Tek, LLC,
                     Contract Number GS-07F-5505R
11/09/09   A090202   Preaward Review of Multiple Award Schedule Contract Extension: Computech, Inc.,
                     Contract Number GS-35F-0108K
06/23/10   A090222   Preaward Review of Multiple Award Schedule Contract Extension: Force 3, Inc.,
                     Contract Number GS-35F-0785J
08/27/09   A090228   Report on Audit of Parts of a Firm Fixed Price Proposal for Architectural and
                     Engineering Services on the New St. Elizabeth's West Campus of the U.S.
                     Department of Homeland Security Headquarters and Consolidated National
                     Operations Center (NOC): Greenhorne & O'Mara, Inc., Solicitation Number
                     GS-11P-08-MKC-0079




                                                                      April 1, 2012 – September 30, 2012 39
Appendix III–OIG Reports over 12 Months Old, Final Agency Action Pending
Date of	       Report
Report	        Number	                                          Title	

09/09/09       A090232          Report on Audit of Parts of a Firm Fixed Price Proposal for Architectural and
                                Engineering Services on the New St. Elizabeth's West Campus of the United States
                                Department of Homeland Security Headquarters and Consolidated National
                                Operations Center in Washington, DC: Haley & Aldrich, Inc., Solicitation Number
                                GS-11P-08-MKC-0079
09/10/09       A090234          Report on Audit of Direct Labor Rates, Indirect Rates, and Other Direct Costs
                                Portion of a Subcontract Proposal: HDR Architecture, Inc., Solicitation Number
                                GS-11P-08-MKC-0079
09/04/09       A090254          Report on Audit of Parts of a Firm Fixed Price Proposal for Architectural and
                                Engineering Services on the New St. Elizabeth's West Campus of the U.S.
                                Department of Homeland Security Headquarters and Consolidated National
                                Operations Center (NOC): Greenhorne & O'Mara, Inc., Solicitation Number
                                GS-11P-08-MKC-0080
02/24/11       A100003          Preaward Review of Multiple Award Schedule Contract Extension: McLane
                                Advanced Technologies, LLC, Contract Number GS-35F-0901P
03/10/11       A100062          Preaward Review of Multiple Award Schedule Contract Extension: Carahsoft
                                Technology Corporation, Contract Number GS-35F-0131R
01/27/11       A100075          Preaward Review of Multiple Award Schedule Contract Extension: Cort Business
                                Services Corporation, Contract Number GS-28F-7018G
09/28/11       A100108          Review of Construction Management Services Contract: Bovis Lend Lease LMB,
                                Inc., Solicitation Number GS-02P-07-DTC-0009
03/29/11       A100114          Preaward Review of Multiple Award Schedule Contract Extension: Ahura Scientific,
                                Inc., Contract Number GS-07F-6099R
10/07/10       A100117          Preaward Examination of Multiple Award Contract Extension: Dun & Bradstreet,
                                Inc., Contract Number GS-22F-9614D
08/03/11       A100119          Preaward Review of Multiple Award Schedule Contract Extension: Noble Sales Co.,
                                Inc., Contract Number GS-06F-0032K
07/07/11       A100140          Preaward Review of Multiple Award Schedule Contract Extension: Veterans
                                Imaging Products, Inc., Contract Number GS-14F-0005L
09/16/10       A100148          Examination of a Change Order Proposal: Alutiiq International Solutions, LLC,
                                Solicitation Number GS-08P-08-JF-C-0005
10/12/10       A100156          Examination of a Claim: Acousti Engineering Company of Florida, Subcontractor to
                                Dick Corporation, Solicitation Number GS-04P-01-EXC-0044
11/02/10       A100167          Preaward Examination of Multiple Award Schedule Contract Extension: Affordable
                                Interior Systems, Inc., Contract Number GS-29F-0006K
03/16/11       A100168          Preaward Examination of Multiple Award Schedule Contract Extension: Johnson
                                Controls, Inc., Contract Number GS-07F-7823C
07/27/11       A100170          Examination of a Claim: Caddell Construction Company, Incorporated, Solicitation
                                Number GS-07P-05-UEC-3003



40  Semiannual Report to the Congress
Appendix III–OIG Reports over 12 Months Old, Final Agency Action Pending
Date of	   Report
Report	    Number	                                  Title	

02/02/11   A100171   Examination of a Claim: Layton Construction Company, Inc., Solicitation Number
                     GS-08P-07-JFC-0016
12/27/10   A100172   Preaward Examination of Multiple Award Schedule Contract Extension: New
                     England Woodcraft, Inc., Contract Number GS-27F-0005
07/25/11   A100174   Examination of a Claim: Leon D. Dematteis Construction Corporation, Solicitation
                     Number GS-02P-04-DTC-0032
01/31/11   A100178   Examination of Construction Management Services Contract: Bovis Lend Lease
                     LMB, Inc., Contract Number GS-02P-04-DTC-0048
02/18/11   A100181   Preaward Examination of Multiple Award Schedule Contract Extension: L.N. Curtis
                     & Sons, Contract Number GS-07F-0043L
08/03/11   A100182   Preaward Examination of O&M Services Contract: Security Construction Services,
                     Inc., Solicitation Number GS-01P-10-BW-C-0026
05/17/11   A100183   Examination of a Claim: Moshe Safdie and Associates, Inc., Contract Number
                     GS-01P-99-BWC-0016
11/24/10   A100193   Postaward Audit of Multiple Award Schedule Contract Extension: The Stratix
                     Corporation, Contract Number GS-3SF-080SR
11/22/10   A100195   Preaward Examination of Multiple Award Schedule Contract Extension: Knight
                     Protective Service, Inc., Contract Number GS-07F-0266K
12/14/10   A100201   Preaward Examination of Multiple Award Schedule Contract Extension:
                     Government-Buys, Incorporated, Contract Number GS-3SF-0122S
01/27/11   A100213   Examination of a Claim: Cobb Mechanical Contractors, Subcontractor to Caddell
                     Construction Company Incorporated, Contract Number GS-07P-05-UEC-3003
05/12/11   A100221   Preaward Examination of Multiple Award Schedule Contract Extension: Mainline
                     Information Systems, Inc., Contract Number GS-35F-0216L
09/08/11   A110021   Examination of a claim: Myrex industries, Subcontractor to Caddell Construction
                     Company, incorporated, Contract Number GS-07P-05-UEC-3003
01/31/11   A110022   Preaward Examination of Multiple Award Schedule Contract Extension: Cooper
                     Notification, Inc., Contract Number GS-07F-0167L
05/12/11   A110044   Preaward Examination of Multiple Award Schedule Contract Extension: Vaisala,
                     Inc., Contract Number GS-25F-6029D
07/26/11   A110062   Preaward Examination of Multiple Award Schedule Contract Extension: Premier &
                     Companies, Inc., Contract Number GS-02F-0132S
05/16/11   A110063   Postaward Examination of Multiple Award Schedule for the period January 1, 2008
                     to December 31, 2010: IntelliDyne, LLC, Contract Number GS-35F-0554K
09/09/11   A110067   Preaward Examination of Multiple Award Schedule Contract Extension: Clifton
                     Gunderson, LLP, Contract Number GS-23F-0135L




                                                                     April 1, 2012 – September 30, 2012 41
Appendix III–OIG Reports over 12 Months Old, Final Agency Action Pending
Date of	       Report
Report	        Number	                                         Title	

06/01/11        A110070         Examination of a Claim: Berg Electric Corporation, Subcontractor to Caddell
                                Construction Co., Inc., Contract Number GS-07P-05-UEC-3003
05/10/11        A110073         Preaward Examination of Multiple Award Schedule Contract Extension: PPS
                                Infotech, LLC, Contract Number GS-35F-0372L
09/29/11        A110073         Limited Scope Postaward Review of Multiple Award Schedule Contract: PPS
                                Infotech, LLC, Contract Number GS-35F-0372L
06/01/11        A110087         Preaward Examination of Multiple Award Schedule Contract Extension: National
                                Interest Security Company, LLC, Contract Number GS-25F-0032lL
07/28/11        A110088         Postaward Examination of Multiple Award Schedule Contract Number for the Period
                                January 1, 2009 to December 31, 2010: Global Protection USA, Inc., Contract
                                Number GS-07F-6028P
07/06/11        A110098         Examination of a Claim: Kenmor Electric Company, L.P., Subcontractor to W.G.
                                Yates & Sons Construction Company, Contract Number GS-07P-05-URC-5007
08/10/11        A110102         Examination of a Claim: W.G. Yates & Sons Construction Company, Contract
                                Number GS-07P-05-URC-5007
06/13/11        A110108         Preaward Examination of Multiple Award Schedule Contract Extension: Protective
                                Products Enterprises, Contract Number GS-07F-9029D
07/27/11        A110109         Preaward Examination of Multiple Award Contract Extension: Security Consultants
                                Group Incorporated, Contract Number GS-07F-0267L
08/19/11        A110111         Preaward Examinations of Multiple Award Schedule Contract Extension: Thermo
                                Electron North America, LLC, Contract Number GS-24F-0026L
05/13/11        A110113         Preaward Examination of Multiple Award Schedule Contract Extension: Smiths
                                Detection, Inc., Contract Number GS-07F-9597G
06/10/11        A110115         Preaward Examination of Multiple Award Schedule Contract Extension: Pacific Star
                                Communications, Inc., Contract Number GS-35F-0031L
09/14/11        A110122         Preaward Examination of Multiple Award Schedule Contract: Agilent Technologies,
                                Incorporated, Contract Number GS-26F-5944A
07/08/11        A110132         Preaward Examination of Architect and Engineering Proposal: R.A. Heintges &
                                Associates, Subcontractor to Smith-Miller & Hawkinson Architects, LLP, Solicitation
                                Number GS-11P-10-MKC-0050
07/08/11        A110132         Preaward Examination of Architect and Engineering Proposal: Smith-Miller &
                                Hawkinson Architects, LLP, Solicitation Number GS-11P-10-MKC-0050
08/04/11        A110133         Preaward Examination of Architect and Engineering Proposal: Arup USA, Inc.,
                                Subcontractor to Smith-Miller & Hawkinson Architects LLP, Solicitation Number
                                GS-11P-10-MKC-0050
08/25/11        A110136         Preaward Examination of Multiple Award Schedule Contract Extension: Konica
                                Minolta Business Solutions U.S.A., Inc., Contract Number GS-25F-0030M




42  Semiannual Report to the Congress
Appendix III–OIG Reports over 12 Months Old, Final Agency Action Pending
Date of	   Report
Report	    Number	                                 Title	

07/14/11   A110140   Preaward Examination of Architect and Engineering Proposal: Lehman Smith
                     McLeish, PLLC, Subcontractor to Smith-Miller & Hawkinson Architects LLP,
                     Solicitation Number GS-11P-10-MKC-0050
09/12/11   A110146   Examination of Conversion Proposal: White Construction Company, Solicitation
                     Number GS-07P-06-UEC-0059
09/15/11   A110174   Postaward Examination of Multiple Award Schedule for the Period March 5, 2010 to
                     July 31, 2011: Protective Products Enterprises, Contract Number GS-07F-9029D
08/15/11   A110180   Examination of Architect and Engineering Services Contract: RTKL Associates,
                     Inc., Solicitation Number GS-11P-11-MKC-0045
09/01/11   A110182   Examination of a Termination Settlement Proposal: Hensel Phelps Construction
                     Company, Solicitation Number GS-04P-10-BVC-0065
08/17/11   A110195   Report on Independent Audit (Adequacy Review) of Initial Disclosure Statement
                     Effective January 1, 2010: J.E. Dunn Construction Co., Solicitation Number
                     GS-06P-08-GZC-0011




                                                                    April 1, 2012 – September 30, 2012 43
Appendix III–OIG Reports over 12 Months Old, Final Agency Action Pending
Date of	       Report		                                                                           Projected Final
Report	        Number	 Title	                                                                     Action Date


Internal Audits
11/09/10       A100123          FY 2010 Office of Inspector General Information Technology               10/15/2012
                                Security Audit of the Information Technology Solution Shop System
12/23/10       A100078          Audit of the General Services Administration’s Fiscal Year 2010          01/15/2013
                                Financial Statements
03/31/11       A100204          Review of Consistency in Implementing Policy Across Acquisition          11/15/2012
                                Centers – Temporary Extensions
03/31/11       A110072          Review of the Federal Acquisition Service’s National Customer            01/15/2013
                                Service Center
05/18/11       A100123          Audit of the Information Technology Solution Shop System                 12/15/2012
                                Performance and Functionality
06/09/11       A100188          Review of GSA Fleet’s Monitoring of Alternative Fuel Vehicle             11/15/2012
                                Surcharge Payments




44  Semiannual Report to the Congress
      Appendix IV–Government Contractor Significant Report Findings



The National Defense Authorization Act for Fiscal Year 2008, P. L. 110-181, requires each Inspector General appointed
under the Inspector General Act of 1978 to submit an annex on final, completed contract audit reports issued to the
contracting activity as part of its Semiannual Report to the Congress. The annex addresses significant audit findings
– unsupported, questioned, or disallowed costs in excess of $10 million – or other significant contracting issues. During
this reporting period, there were no audit reports that met these requirements.




                                                                                    April 1, 2012 – September 30, 2012 45
              Appendix V–OIG Reports Without Management Decision



Section 5(a)(10) of the Inspector General Act as amended, requires a summary of each report issued before the
commencement of the reporting period for which no management decision has been made by the end of the reporting
period. GSA has a system in place to track reports and management decisions. Its purpose is to ensure that
recommendations and corrective actions indicated by the OIG and agreed to by management are addressed as
efficiently and expeditiously as possible. During this reporting period, there were no reports that met this requirement.




46  Semiannual Report to the Congress
                                Appendix VI–Peer Review Results



The Dodd-Frank Wall Street Reform and Consumer Protection Act requires each Inspector General to submit an
appendix containing: the results of any peer review conducted by another OIG during the reporting period or, if no peer
review was conducted, a statement identifying the date of the last peer review conducted; a list of any outstanding
recommendations from any peer review conducted by another OIG that have not been fully implemented, the status of
the recommendation, and an explanation why the recommendation is not complete; and a list of any peer reviews
conducted by the OIG of another OIG during the reporting period, including a list of any outstanding recommendations
made from any previous peer review that have not been fully implemented.

The Department of Justice Office of Inspector General started their peer review of the Office of Audits in April 2012.
The review is currently on-going. In addition, we conducted a peer review of the United States Treasury Inspector
General for Tax Administration (TIGTA) during this reporting period. TIGTA has no outstanding recommendations
made from any previous peer review that have not been fully implemented. The Office of Investigations’ last peer review
(2010) was conducted by the Department of Energy OIG, which resulted in an opinion that the Office of Investigations’
system of internal safeguards and management procedures were in compliance with the quality standards established
by CIGIE and applicable U. S. Attorney General guidelines.




                                                                                   April 1, 2012 – September 30, 2012 47
                                     Appendix VII–Reporting Requirements


The table below cross-references the reporting                                     Supplemental Appropriations and Rescission Bill, the
requirements prescribed by the Inspector General Act of                            National Defense Authorization Act, and the Dodd-
1978, as amended, to the specific pages where they are                             Frank Wall Street Reform Act are also cross-referenced
addressed. The information requested by the Congress                               to the appropriate page of the report.
in Senate Report No. 96-829 relative to the 1980


Requirement	                                                                                                                                         Page

  Inspector General Act

     Section 4(a)(2) – Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

     Section 5(a)(1) – Significant Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1–8

     Section 5(a)(2) – Recommendations with Respect to Significant
     Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1–8
     Section 5(a)(3) – Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

     Section 5(a)(4) – Matters Referred to Prosecutive Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

     Sections 5(a)(5) and 6(b)(2) – Summary of Instances Where
     Information Was Refused . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none
     Section 5(a)(6) – List of OIG Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

     Section 5(a)(7) – Summary of Each Particularly Significant Report . . . . . . . . . . . . . . . . . . . . . . . . . . . 1–8

     Section 5(a)(8) – Statistical Tables on Management Decisions on Questioned Costs . . . . . . . . . . . . . . 23

     Section 5(a)(9) – Statistical Tables on Management Decisions on
     Recommendations That Funds Be Put to Better Use. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
     Section 5(a)(10) – Summary of OIG Reports Issued Before the Commencement of the
     Reporting Period for Which No Management Decision Has Been Made . . . . . . . . . . . . . . . . . . . . . . . . 46
     Section 5(a)(11) – Description and Explanation for Any Significant
     Revised Management Decision. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none
     Section 5(a)(12) – Information on Any Significant Management
     Decisions with Which the Inspector General Disagrees. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none
  Senate Report No. 96-829

     Resolution of Audits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

  National Defense Authorization Acts

     Public Law 104-106, 5 U.S.C. app. 3, § 5 note. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38

     Public Law 110-181. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

  Dodd-Frank Wall Street Reform and Consumer Protection Act

     Peer Review Results. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47


48  Semiannual Report to the Congress
                           Appendix VIII–OIG Offices and Key Officials



Office of the Inspector General
Inspector General, Brian D. Miller (J)........................................................................................(202) 501-0450
Deputy Inspector General, Robert C. Erickson (JD)..................................................................(202) 501-0450
Director of Communications and Congressional Affairs, Dave Farley (JX).................................(202) 219-1062


Office of Counsel to the Inspector General
Counsel to the IG, Richard Levi (JC).........................................................................................(202) 501-1932


Office of Forensic Auditing, Evaluation, and Analysis
Director, Patricia D. Sheehan (JE)...........................................................................................(202) 273-4989


Office of Audits
Assistant IG for Auditing, Theodore R. Stehney (JA)................................................................(202) 501-0374
Principal Deputy Assistant IG for Auditing, Kenneth L. Crompton, (Acting) (JAD)......................(202) 501-0374
Director, Audit Planning, Policy, and Operations Staff, Lisa L. Blanchard (JAO)......................(202) 273-7271
Director, Administration and Data Systems Staff, Thomas P. Short (JAS)...............................(202) 501-1366
Director, Office of Special Projects, Paul J. Malatino (JA-P)....................................................(202) 208-0021


Deputy Assistant Inspectors General for Auditing
Finance and Information Technology Audit Office, Carolyn Presley-Doss (JA-F) . ....................(202) 357-3620
Real Property Audit Office, Rolando N. Goco (JA-R)................................................................(202) 219-0088
Acquisition Programs Audit Office, Barbara E. Bouldin, (Acting) (JA-A)....................................(703) 603-0189


Regional Inspectors General for Auditing
Northeast and Caribbean Region Audit Office, Steven D. Jurysta (JA-2) ..................................(212) 264-8620
Mid-Atlantic Region Audit Office, James M. Corcoran (JA-3)....................................................(215) 446-4840
Southeast Sunbelt Region Audit Office, Nicholas V. Painter (JA-4)...........................................(404) 331-5125
Great Lakes Region Audit Office, Adam R. Gooch (JA-5).........................................................(312) 353-7781
The Heartland Region Audit Office, John F. Walsh (JA-6).........................................................(816) 926-7052
Greater Southwest Region Audit Office, Paula N. Denman (JA-7).............................................(817) 978-2571
Pacific Rim Region Audit Office, James P. Hayes (JA-9)...........................................................(415) 522-2744




                                                                                                     April 1, 2012 – September 30, 2012 49
                           Appendix VIII–OIG Offices and Key Officials



  Office of Investigations
  Assistant IG for Investigations, Geoffrey Cherrington (JI)..........................................................(202) 501-1397
  Deputy Assistant IG for Investigations, Lee Quintyne (JID)........................................................(202) 501-1397
  Director, Investigations Operations Division, Gerald R. Garren (JIB).......................................(202) 501-4583
  Director, Internal Operations Division, Bruce S. McLean (JII)..................................................(202) 208-2384


  Special Agents in Charge (SAC)
  Mid-Atlantic Regional Office, SAC Christopher P. Cherry (JI-W)..............................................(202) 252-0008
  Philadelphia Regional Office, SAC James E. Adams (JI-3).......................................................(215) 861-3550
  Northeast and Caribbean Regional Office, SAC James E. Adams (JI-2)...................................(215) 861-3550
  Boston Regional Office, SAC Luis A. Hernandez (JI-1)...........................................................(617) 565-6820
  Southeast Regional Office, SAC James Taylor (JI-4)................................................................(404) 331-3084
  Ft. Lauderdale Resident Office, SA Dietrich Bohmer (JI-4M)....................................................(954) 356-6993
  Central Regional Office, SAC Stuart G. Berman (JI-5).............................................................(312) 353-7779
  Mid-West Regional Office, SAC John F. Kolze (JI-6)................................................................(816) 926-7214
  Denver Resident Office, SA Christopher C. Hamblen (JI-8)......................................................(303) 236-5072
  Southwest Regional Office, SAC Paul W. Walton (JI-7)............................................................(817) 978-2589
  Western Regional Office, SAC Bryan D. Denny (JI-9)..............................................................(415) 522-2755
  Laguna Niguel Resident Office, SA Theresa Quellhorst (JI-9L)................................................(949) 360-2214
  Northwest Regional Office, SAC Terry J. Pfeifer (JI-10)............................................................(253) 931-7654


  Office of Administration
  Assistant IG for Administration, Larry Lee Gregg (JP)...............................................................(202) 219-1041
  Deputy Assistant IG for Administration, Stephanie Burgoyne (JP).............................................(202) 273-5006
  Budget and Financial Management Office, Director Stephanie Burgoyne (JPB)........................(202) 273-5006
  Executive Resources Staff/Human Capital Officer, Jack Mossop (JPE).....................................(202) 501-0821
  Human Resources Division, Director Denise McGann (JPH)....................................................(202) 501-1734
  Information Technology Division, Director Rickey Eaton (JPM).................................................(703) 603-2323
  Facilities and Services Office, Supervisor Carol Mulvaney (JPF).............................................(202) 501-3119
  Contracting Office, Team Leader Myra R. Hayes (JPC)...........................................................(202) 501-2887




50  Semiannual Report to the Congress
Notes




        April 1, 2012 – September 30, 2012 51
                                        Notes




52  Semiannual Report to the Congress
Make
like
it’s
your
money!
It is.
To report suspected waste, fraud, abuse, or
mismanagement in GSA, call your

Inspector General’s Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write:	 GSA, IG, Hotline Officer
	          Washington, DC 20405

or access the Web:	
http://www.gsaig.gov/index.cfm/hotline/

Office of Inspector General
U.S. General Services Administration
Office of Inspector General
U.S. General Services Administration
1800 F Street, NW
Washington, DC 20405
http://www.gsaig.gov
